                                                                             Report No. DODIG-2014-072



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 1 9 , 2 0 1 4




                     U.S. Military and Coalition Efforts to
                     Develop Effective and Sustainable
                     Healthcare in Support of the Afghan
                     National Police




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                          Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       U.S. Military and Coalition Efforts to Develop Effective
                                       and Sustainable Healthcare in Support of the Afghan
                                       National Police


May 19, 2014                                              Observations (cont’d)

Objective                                                 had a positive effect on the development of the Afghan
                                                          National Security Forces healthcare system and direct medical
The overall purpose of this project was to                support to the ANP. Examples include the General Officer
assess the progress of U.S. and Coalition                 Steering Council and cooperation among the ministries
efforts to develop effective and sustainable              regarding the medical care provided to ANP casualties.
healthcare in support of the Afghan National
Police (ANP). Specifically, we assessed                   However, we found that U.S. and Coalition plans and advisory
whether the plans to develop effective and                efforts were not consistently focused on developing the ANP
sustainable healthcare services for the ANP               medical capability to provide effective point-of-injury and
were comprehensive and implemented to                     en route care for combat casualties. Additionally, we found
meet the transition timeline. Additionally,               that medical advisory resources were not sufficient or, in some
we determined whether advisory resources                  cases, not skilled and trained to aid in the development of
were sufficient and appropriate to support                ANP medical capability.
the medical needs of the ANP. Finally, we
assessed whether developmental efforts were               We also found that the ANP did not have sufficient medics,
on schedule and effective in ensuring there               nor the necessary medical equipment and supplies, to properly
was adequate medical capability, including                care for injured police personnel. Furthermore, ANP ambulances
logistics, to provide proper medical support              were not stocked with necessary equipment and supplies and
to ANP personnel from the point of injury to              not properly utilized to transport casualties to the next level
the next required level of care.                          of care. Additionally, the ANP had not been providing sufficient
                                                          basic medic training and did not have training programs to

Observations                                              develop first-aid training to adequately prepare non-medical
                                                          police personnel to render effective first aid.
The Afghan Air Force is developing the
casualty evacuation capabilities utilizing                Additional development assistance was needed by the
fixed and rotary wing aircraft, C-208 and                 ANP Office of the Surgeon General to provide effective
Mi-17s respectively. We found that significant            oversight and management of medical activities within the
progress was made by the Afghan Air Force                 Ministry of Interior. Priority focus on the shortages of medical
in conducting casualty evacuation this past               personnel at the ANP Hospital was needed to support the
year with an increased number of casualty                 increasing number of ANP casualties and to ensure there
evacuations and improved response times.                  were sufficient pharmacists to provide effective pharmacy
                                                          operations.    Additionally, we found that the ANP medical
We found examples of improved cooperation                 logistics system was marginally effective and required significant
among Government of the Islamic Republic                  improvement to ensure that medical supplies, including
of Afghanistan  organizations which have                  pharmaceuticals, were available as needed for patient care.


Visit us on the web at www.dodig.mil


                                                                               DODIG-2014-072 (Project No. D2013-D00SPO-154.000) │ i
                                                         FOR OFFICIAL USE ONLY

                                       Results in Brief
                                       U.S. Military and Coalition Efforts to Develop Effective
                                       and Sustainable Healthcare in Support of the Afghan
                                       National Police


                                                                      Recommendations (cont’d)

  Recommendations                                                     NTM-A/CSTC-A, in coordination with IJC, conduct key
                                                                      leader engagements with Ministry of Interior to ensure
  International Security Assistance Force Joint Command               that the Surgeon General is provided authority to
  (IJC), North Atlantic Treaty Organization Training                  discharge his responsibilities for the oversight of
  Mission–Afghanistan (NTM-A), and Combined Security                  healthcare services provided to the ANP and for the
  Transition Command–Afghanistan (CSTC-A) advise and                  manning, equipping, and training of ANP medical personnel.
  assist the MoI to:
                                                                      International Security Assistance Force, in coordination
      •	 ensure there are sufficient medics available to              with IJC and NTM-A:
         provide effective medical support to ANP personnel;
                                                                         •	 update and distribute medical development plans,
      •	 ensure that ANP have adequate equipment and
                                                                            and ensure the development of ANP point-of-
         medical supplies, including first-aid kits, medic
                                                                            injury care and patient evacuation remains a top
         first-aid bags, and equipped ambulances, to properly
                                                                            priority; and
         care for the combat injured;
                                                                         •	 continue to conduct key leader engagements
      •	 develop effective and sustainable training programs
                                                                            with Ministry of Interior, Ministry of Defense, and
         to produce ANP medics and provide additional
                                                                            Ministry of Public Health to encourage improved
         first-aid training, including combat lifesaver skills,
                                                                            relationships and sharing of healthcare resources.
         to non-medical police personnel;
                                                                      U.S. Central Command (USCENTCOM), in coordination
      •	 ensure there are sufficient medical personnel,
                                                                      with NTM-A, ensure that medical logistics advisor
         including pharmacists, at the ANP Hospital to
                                                                      positions are filled with qualified personnel with the
         provide effective medical support and well-managed
                                                                      requisite medical logistics experience.
         pharmacy operations;

      •	 understand the healthcare limitations at the
         ANP Hospital and develop patient protocols to
                                                                      Management Comments and
         identify and transfer those patients whose                   Our Response
         healthcare needs may require a higher level of care;
                                                                      USCENTCOM, IJC, and NTM-A provided comments to
      •	 evaluate and improve the medical logistics                   this report. Management concurred with all but one
         process for the receipt and distribution of medical          recommendation; however, their responses did not
         supplies; and                                                include what actions they have taken or plan to take to
                                                                      accomplish the recommendations. We request that these
      •	 update the Office of the Surgeon                   General   commands provide additional comments to the final report
         Organization and Functions Manual.                           specifying any progress made with the recommendations.




ii │ DODIG-2014-072 (Project No. D2013-D00SPO-154.000)
                                             FOR OFFICIAL USE ONLY

                               Results in Brief
                               U.S. Military and Coalition Efforts to Develop Effective
                               and Sustainable Healthcare in Support of the Afghan
                               National Police


Comments (cont’d)

USCENTCOM provided a response to Recommendation  8.a          recommendation was revised to address USCENTCOM’s
explaining that it was critical that the sourcing service     comments and now includes coordination with the
and those monitoring personnel assignments pay close          sourcing service to ensure that the ANP medical logistics
attention to the special remarks and job descriptions         advisor position is filled with qualified personnel with
listed in the Joint Manning or the Request for Forces         medical logistics experience.
documents to ensure that Individual Augmentees/service
members tasked to these billets have the appropriate          We did not receive a written response from International
skillset to provide guidance to their mentees. Furthermore,   Security Assistance Force prior to the publication of the
USCENTCOM explained that using just the Military              final report and request that they provide their response
Occupational Specialty/Air Force Specialty Code/Naval         to Recommendations 6.a and 7.a for the final report.
Officer Billet Classification does not always guarantee       All responses to the final report should be provided
that the tasked officer has the required skillset. This       by June 20, 2014.




                                                                           DODIG-2014-072 (Project No. D2013-D00SPO-154.000) │ iii
               Recommendations Table
                                                                       Recommendations                  No Additional
                                  Management                           Requiring Comment              Comments Required
                 U.S. Central Command                            8.a
                 International Security Assistance Force         6.a; 7.a

                 International Security Assistance Force Joint   1.a, 1.b, 1.c, 1.d; 2.a, 2.b,
                 Command                                         2.c; 4.a, 4.b, 4.c, 4.d, 4.e, 4.f;
                                                                 7.b(1), 7.b(2); 8.c
                 NATO Training Mission–Afghanistan (NTM-A)       3.a; 5.a, 5.b, 5.c; 6.b(1),          3.b
                                                                 6.b(2); 8.b; 9.a, 9.b, 9.c, 9.d

               Total Recommendations in this report: 31

               Please provide comments by June 20, 2014.




iv │ DODIG-2014-072
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                       May 19, 2014

MEMORANDUM FOR SECRETARY OF DEFENSE
           	   DEPUTY SECRETARY OF DEFENSE
           	   COMMANDER, U.S. CENTRAL COMMAND
           	   COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
           		    FORCE/UNITED STATES FORCES-AFGHANISTAN
           	   COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
           		    FORCE JOINT COMMAND
           	   COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
           		    TRAINING MISSION-AFGHANISTAN

SUBJECT: U.S. Military and Coalition Efforts to Develop Effective and Sustainable Healthcare in
         Support of the Afghan National Police (Report No. DODIG-2014-072)

The Deputy Inspector General for Special Plans and Operations is providing this              report
for your review and use. This report is the fifth in a series of reports that focus          on the
development of a sustainable medical logistics and healthcare capability in support          of the
Afghan National Security Forces. We considered management comments to a draft                of this
report when preparing the final report.

Comments from the U.S. Central Command (USCENTCOM), International Security Assistance
Force Joint Command (IJC), and NATO Training Mission-Afghanistan (NTM-A) were partially
responsive, as they concurred with our recommendations without describing what actions
they had taken or planned to take to accomplish the recommendations. We request
that as a follow-up to the final report, USCENTCOM, IJC and NTM-A describe what actions
they have taken or plan to take to accomplish their respective recommendations.

The International Security Assistance Force (ISAF) did not provide comments on the
recommendations for which they were the Office of Primary Responsibility. We therefore
request that ISAF provide comments to those recommendations in response to the final
report. The comments should state whether you agree or disagree with the observation(s) and
recommendation(s). If you agree with a recommendation, clearly state that you “concur” or
“concur with comment” and describe what actions you have taken or plan to take to
accomplish the recommendation and include the completion dates of your actions. Send
copies of documentation supporting the actions you may have already taken. If you disagree
with the recommendations or any part of them, please clearly state that you “non-concur”
and give specific reasons why you disagree and propose alternative action if that
is appropriate.




                                                                                              DODIG-2014-072 │ v
                  Please    provide    comments     that     conform     to   the    requirements   of
                  DoD Directive 7650.3. If possible, send your comments in electronic format (Adobe
                  Acrobat file only) to SPO@dodig.mil. Copies of your comments must have the
                  actual signature of the authorizing official for your organization. We are unable to
                  accept the /Signed/ symbol in place of the actual signature. We should receive
                  your comments by June 20, 2014.

                  We appreciate the courtesies extended to the staff. Please direct questions
                  to Mrs. Patricia Goodin at (703) 604-9485 (DSN (312) 664-9485)/
                  patricia.goodin@dodig.mil,    or     Mr. David Corn     at   (703)    604-9474
                  (DSN (312) 664-9474)/david.corn@dodig.mil. We will provide a formal briefing on
                  the results, if management requests.




                  	                                          Kenneth P. Moorefield
                  	                                          Deputy Inspector General
                  	                                            Special Plans and Operations




vi │ DODIG-2014-072
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1

Part I - Notable Progress
Working Towards Transition____________________________________________________________________9

Part II - Challenges
Observation 1. Point-of-Injury Care__________________________________________________________ 19
Observation 2. Afghan National Police Medics______________________________________________ 27
Observation 3. Trauma Assistance Personnel Training Program__________________________ 35
Observation 4. Medical Transport of Afghan National Police Casualties__________________ 43
Observation 5. Pharmacy Operations________________________________________________________ 53
Observation 6. Caring for Combat Casualties at the Afghan National
   Police Hospital_____________________________________________________________________________ 61
Observation 7. Developmental Plans and Advisory Resources____________________________ 71
Observation 8. Medical Logistics_____________________________________________________________ 81
Observation 9. Oversight and Management of Afghan National Police
   Healthcare Capability_____________________________________________________________________ 91

Appendixes
Appendix A. Scope and Methodology_______________________________________________________101
Appendix B. Prior Coverage_________________________________________________________________104
Appendix C. Criteria__________________________________________________________________________107
Appendix D. Afghan Police and Security Organizations___________________________________112
Appendix E. Ministry of Interior Organizational Chart ___________________________________117

Management Comments
U.S. Central Command Response_ ___________________________________________________________119
International Security Assistance Force Joint
    Command Response______________________________________________________________________120
North Atlantic Treaty Organization Training
   Mission - Afghanistan Response_________________________________________________________122

Acronyms and Abbreviations_____________________________________________125

                                                                                                  DODIG-2014-072 │ vii
                                                                                               Introduction




Introduction
The purpose of this project was to assess the progress of U.S. and Coalition efforts
to develop effective and sustainable healthcare in support of the Afghan National
Police (ANP). This report provides data and analysis and makes recommendations
intended to improve the effectiveness of ANP medical capability to the North
Atlantic Treaty Organization (NATO) International Security Assistance Force (ISAF),
ISAF Joint Command (IJC), and the NATO Training Mission–Afghanistan/Combined
Security Transition Command–Afghanistan (NTM-A/CSTC-A). The report contributes
to the ongoing DoD Office of Inspector General (OIG) efforts to assess DoD plans
and activities leading to the development of an independent Afghan National
Security Forces (ANSF) and the transition of security responsibility for Afghanistan to
Afghan lead.


Objective
On April 26, 2013, the DoD OIG announced the assessment of the “U.S. Military
and Coalition Efforts to Develop Effective and Sustainable Healthcare in Support of
the Afghan National Police,” (Project No. D2013-D00SPO-0154-000).               The specific
objectives were to determine whether:

         •	 plans to develop effective and sustainable healthcare services to the
            ANP are sufficiently comprehensive, coordinated with the Government of
            the Islamic Republic of Afghanistan (GIRoA), and being implemented so
            as to meet the transition timeline;

         •	 advisory resources are sufficient and appropriate in order to develop the
            healthcare services necessary to support the medical needs of the ANP; and

         •	 developmental efforts are on schedule and effective in ensuring there is
            adequate medical capability, including logistics, to provide proper medical
            support to ANP personnel from the point of injury to the next required
            level of care.


Background
After the overthrow of the Taliban in 2001, U.S. and Coalition forces developed a plan
for creating a national security force, to include a military healthcare system.
According to NTM-A, the ANSF healthcare system was developed to be an
interdependent regional/zone healthcare system focused on the provision of
comprehensive medical services to soldiers and policemen.                This included basic
rehabilitative and neuropsychiatric services designed to return these individuals to
duty or assist them with the transition into productive civilian life.
                                                                                           DODIG-2014-072 │ 1
Introduction



                 Afghan National Security Forces Casualties
                 The ANSF are now leading security operations in Afghanistan, which has resulted in
                 a significant increase in casualties, particularly in the ANP. Some reports estimate
                 that the ANP have five times as many casualties as their Afghan National Army (ANA)
                 counterparts. Reducing ANSF casualties and fatality rates is therefore a priority for
                 both IJC and the Ministry of Interior (MoI).


                 Afghan National Security Forces Healthcare in Afghanistan
                 Today, there are six Afghan hospitals that support the ANSF.                                                                                   The ANP maintains
                 a single Afghan National Police Hospital (ANPH), a 161-bed facility (recently
                 expanded from a 74-bed facility) in Kabul, the capital of Afghanistan. The ANA has
                 5 military hospitals: the 410-bed Dawood National Military Hospital in Kabul and
                 100-bed regional hospitals in Kandahar, Gardez, Herat, and Mazar-e-Sharif.                                                                                                   There
                 is a sixth ANA regional hospital under construction in Gamberi, Laghman Province.
                 In       addition,          by         agreement                  with               the           Ministry                of         Public         Health          (MoPH),
                 ANSF personnel are able to receive initial casualty care at local provincial and
                 district hospitals. These patients, once stabilized, are transferred to either the ANPH
                 or army hospitals for further medical treatment as needed.

                 Figure 1. Afghanistan National Security Forces Hospitals (Army and Police)



                                                                         Jowzjan          Balkh                                          Badakhshan
                                                                                                                         K onduz
                                                                                                               Konduz       Takhar
                     ANA Hospital Herat (HRMH)
                                                                                              M azar-al-Shariff


                                                                                                                                                             ANA Hospital Mazar-E-Sharif (MRMH)
                                                             Faryab                           Samangan            Baghlan
                                                                           Sar-I Pol                                                    Nuristan          ANP Hospital (Kabul)
                                                   Badghis
                                                                                                               Parwan                       Kunar
                                                                                                     Baym an
                                                                                                                                 Laghman                     ANA Dawood National Military
                               Herat                                                                                     Kabul             Jalalabad         Hospital (NMH) (Kabul)
                                           Herat                                         Bamyan
                                                                                                       Wardak
                                                                                                                                      Nangarhar
                                                                          Day Kundi                                  Logar
                                                             Ghor                                                            Paktia                ANA Hospital Gamberi (Under
                                                                                                                             Gardez
                                                                                                                                                   Construction)
                                                                                                                               Khowst
                                                                                                     Ghazni
                                                                                                                                               ANA Hospital Gardez (GRMH)
                                                                       Uruzgan
                                Farah                                                   Zabul

                                                                                                               Paktika
                                                                           K andahar


                                                                                                                                              ANA Hospital Kandahar (KRMH)
                                                                                       Spin Boldak
                                                                                                                                                                     ANP Hospital

                                 Nimroz                                                                                                                              ANA Hospitals
                                                   Helmand          Kandahar

                                                                                                                                                                     Capital of Afghanistan

                                                                                                                                                                     City



                 Source: NTM-A




2 │ DODIG-2014-072
                                                                                          Introduction



Healthcare Facilities in Support of Ministry of Interior
To support the healthcare requirements of the MoI’s police force, there is the ANPH
and a 65-bed drug rehabilitation hospital located in Kabul augmented by a system
of over 130 clinics located throughout the country.         The MoI has 4,825 medical
positions on its Tashkil or manpower document, including 387 physicians, 2 physician
assistants, 257 nurses, and 1,649 medics.         The remaining 2,530 Tashkil positions
include medical technicians specialized in laboratory or radiology, for example, and
other non-medical support personnel such as clerks and housekeepers.


ANP Hospital
The ANPH is responsible for the medical care needs of up to 157,000 ANP
personnel and their families. There are eight wards (General Surgery; Orthopedic;
Neurosurgery; Internal Medicine; Recovery; Ladies; Very Important Persons; and Ear,
Nose, and Throat) in the hospital, as well as an emergency room with five beds, and
one operating suite with two surgical tables. On average, they conduct five surgeries
per day.

The following services are provided at the hospital:

           •	 Surgical Services including General Surgery; Orthopedics; Neuro Surgery;
             Urology; and Ear, Nose, and Throat

           •	 Medical Services including Internal Medicine and Ophthalmology

           •	 Pediatrics

           •	 Dental

           •	 Emergency Care

           •	 Anesthesia

           •	 Physical Therapy

           •	 Laboratory and Blood Bank

           •	 Radiology

The Surgeon General plans to establish an Intensive Care Unit in the expanded
hospital to help care for severely wounded combat casualties who require a higher
level of care than what the hospital currently has available. In preparation for the
opening of the Intensive Care Unit, medical personnel are undergoing training at the
Dawood National Military Hospital to give them experience in providing medical care to
critically ill patients.

                                                                                      DODIG-2014-072 │ 3
Introduction




                     Figure 2. ANP Hospital in Kabul, Afghanistan
                     Source: NTM-A



                 ANP Clinics
                 There are over 130 medical clinics throughout Afghanistan offering medical support
                 to ANP personnel. These clinics are usually co-located or near police headquarters
                 in the provinces and at the ANP training centers. The medical clinics range in size
                 from a single room to facilities with multiple exam rooms.                     Several of the larger
                 clinics have beds where patients can remain overnight if their medical condition
                 warrants continued observation.                    Medical personnel assigned to the clinics range
                 from a single medic running a clinic to multiple physicians, including dental
                 and surgical specialists, for the larger clinics.


                 Medical Advisory Resources
                 NTM-A was responsible for advising at the ministerial level.                    At the time of our
                 visit, in June 2013, there were five medical advisors assigned to the Office of the
                 Surgeon General (OTSG). They primarily mentored the OTSG in the following areas:
                 budget and finance, facilities, medical readiness, personnel, plans, and medical logistics.
                 Advising at the ministerial level was expected to remain in place through 2014.


                 Medical Training Advisory Group
                 The      NTM-A       Medical      Training         Advisory   Group   (MTAG)   was   established   in
                 November 2009, to provide medical advisors to every regional command and
                 associated ANSF hospital.              These U.S. and Coalition military and civilian advisors,



4 │ DODIG-2014-072
                                                                                              Introduction



consisting of doctors, nurses, administrators, logisticians, and clinical services
support and technical personnel advise and train Afghan healthcare personnel
providing care to Afghan sick or wounded on the battlefield, in the operating
room, the intensive care unit, on the hospital wards, and at the supply depots. MTAG
advisors operate in close partnership with their Afghan counterparts during the
performance of their duties.

At the time of our visit, there were eight medical advisors assigned to the MTAG in
support of mentoring at the ANPH.            As part of the drawdown of U.S. and Coalition
forces leading to transition in 2014, the number of advisors at the ANPH decreased
to six in October 2013, then three in December 2013. In December 2013, the hospital
transitioned to Afghan-lead. As of February 2014, four medical advisors continued to
mentor at the OTSG level.          Additionally, NTM-A formed a Multi-Function Advisory
Team (MFAT) to provide advisory support to the hospital, if required. This team has
seven members who are medical subject matter experts and deploy to any ANSF medical
facility to address targeted deficiencies.


Medical Advising at the Police Unit Level
IJC was responsible for medical advising at the regional level.      Regional Commanders
used Security Force Assistance Advisory Teams (SFAAT) to cover advisory duties
within specific police units. Although not their primary job, the medic or other medical
personnel assigned to the SFAAT were responsible for assisting in the development of
ANP clinics in their geographic area of responsibility.


Afghan National Police Forces
The ANP conducts operations in 34 provinces of which 12 are considered high
threat areas where daily combat is occurring against terrorist forces. According to
NTM-A, the ANP is conducting more “military-like” operations than a traditional
police force, without the advantage of having the equipment and training
provided to the ANA.        According to the Afghan National Police Strategy, “terrorist
tactics focus predominately on the police rather than the international military
and ANA.”      Consequently, the ANP continue to suffer significantly higher number
of casualties than the ANA and have limited medical capability and casualty
evacuation capacity to support operations in remote locations.           Additionally, with
the drawdown of U.S. and Coalition forces and their subsequent reduction in air
casualty evacuation, police casualties are being transported by the Afghans using
ground transportation, such as pickup trucks and in some cases ambulances,
with either no, or limited medical care provided at the point of injury or en route to
a hospital.


                                                                                          DODIG-2014-072 │ 5
Introduction



                 The end-strength           objective for the ANP is 157,000 personnel, of which
                 150,588 positions had been fielded as of January 2014.              The police force is
                 responsible for maintaining civil order and law enforcement.            Specifically, their
                 responsibilities include:

                          •	 combatting crime and disorder (including terrorism and illegal armed
                               activity);

                          •	 preventing the cultivation, production, and smuggling of narcotics;

                          •	 fighting corruption; and

                          •	 ensuring the sovereignty of the state and protecting its borders.

                 Organizationally, the GIRoA police forces reside under the MoI Deputy Minister
                 of Security. These forces are composed of various types of activities in support of
                 policing responsibilities, referred to as “Police Pillars.” Appendix D contains a listing
                 and description of each of the police pillars.

                 This assessment focused on the healthcare capability for three of the ANP pillars;
                 specifically, Afghan Uniformed Police (AUP), Afghan Border Police (ABP), and
                 Afghan National Civil Order Police (ANCOP). Their respective roles and missions are
                 as follows:

                          •	 Afghan Uniform Police: Maintain rule of law, adapting an intelligence-
                               based policing model.     Consists of the ANP Regional Zones, the Traffic
                               Police, and the Fire and Rescue Department.

                          •	 Afghan Border Police:           Secure and safeguard national borders and
                               maintain security in the Border Security Zone that extends 50 kilometers
                               into the territory of Afghanistan.

                          •	 Afghan National Civil Order Police: Maintain the rule of law and order
                               utilizing proportionate armed capability. The lead police organization in
                               counter insurgency operations.




6 │ DODIG-2014-072
                   Part I. Notable Progress




Part I
Notable Progress




                           DODIG-2014-072 │ 7
                                                                                                             Working Towards Transition




Working Towards Transition
A priority goal of ISAF is to successfully transition security responsibility to the GIRoA
by the end of 2014.                 The continued development of an effective ANSF healthcare
system, among other enabler1 functions, is critical to achieving a successful transition
by 2014, and sustaining independent ANSF operations after 2014. Through the efforts
and leadership of ISAF, IJC, and NTM-A/CSTC-A working at all levels of the Ministry
of Defense (MoD), MoI, and MoPH, progress has been made in laying the foundation
for building an effective ANSF healthcare system including at the ANPH.


Afghan National Security Forces Hospital Healthcare
Standards and NTM-A Healthcare Validation Team
In 2010, NTM-A/CSTC-A awarded a contract to CURE International, a non-governmental
organization, to develop healthcare standards for specific GIRoA hospitals.                                             These
standards, referred to as the “ANSF Healthcare Standards,” were finalized in 2012
and were based on a “tiered” approach, where successive tiers represented a graduated
measurement of capabilities, based on defined standards and criteria. Specifically,
Tier  1 standards demonstrated functions of a basic, self-sustaining healthcare system;
Tier  2, a self-sustaining healthcare system with limited advanced capabilities; and
Tier  3 standards represented advanced capabilities and included criteria for
credentialing and advanced certifications.                            ANSF medical leaders refer to these
healthcare standards to focus their efforts as they work to improve their hospitals
and the medical care provided to the ANSF.

In December 2011, NTM-A developed a survey tool, hereafter referred to as the
“Validation Tool,” to measure a hospital’s performance and compliance with Tier 1
of the established ANSF Healthcare Standards.                               Beginning in December 2011, the
NTM-A Healthcare Validation Team conducted periodic visits to ANSF hospitals,
including the ANPH, and used the Validation Tool to assess the level of
compliance by individual hospital departments.                                Coalition advisors use the ANSF
Healthcare Standards and the results of the Healthcare Validation Team’s inspections
to guide and prioritize their mentoring and advising efforts within ANSF hospitals.



	1	
       “Enablers” are focused on providing ANSF with capabilities to enable them to operate autonomously, including operation
      and sustainment of a combined arms force. Examples of enablers are command and control, aviation, intelligence, signal,
      special operations forces, medical support, explosive ordinance disposal/counter improvised explosive disposal, and
      logistics. See “Planning for the Effective Development and Transition of Critical ANSF Enablers to Post-2014 Capabilities
      Part I - Afghan National Army Enabler Description,” (Report No. DODIG-2013-129), September 20, 2013, for additional
      detail on enablers.




                                                                                                                                  DODIG-2014-072 │ 9
Working Towards Transition



                 Capability Milestone Ratings and Readiness
                 to Transition
                 The scores derived from the NTM-A Validation Tool are compiled into a metric that
                 is used to determine a capability milestone (CM) rating for each area assessed, as
                 well as an overall CM rating for the hospital. The CM ratings range from CM-1A
                 to CM-4 and are based on the level of current capabilities. The CM ratings serve
                 as a forecast as to when the hospital will most likely be ready to transition to
                 Afghan-lead.       Specifically, a rating of CM-1B is the required transition decision
                 point and indicates that a hospital is capable of executing functions with Coalition
                 oversight only.     The end-state goal for the hospital is to achieve a CM-1A rating,
                 indicating that the hospital is “capable of autonomous operations.”

                 Table 1 lists the transition status for all ANSF hospitals and includes the dates
                 identified for visits by the NTM-A Healthcare Validation Team.

                 Table 1. Status of Transition for ANSF Hospitals
                                                    Transition of ANSF Hospitals
                                                                                      Healthcare Validation Team
                      Afghan National Security Forces’ Hospital     Transition Date      Post-Transition Visit
                  ANA Regional Military Hospital—Mazar-e-Sharif        30-Jun-13      August 2013
                  ANA Regional Military Hospital—Gardez                30-Jun-13      September 2013
                  ANA Regional Military Hospital—Herat                 30-Jun-13      September/October 2013
                  ANA Regional Military Hospital—Kandahar             30-Sep-13       November/December 2013
                  ANA National Military Hospital—Kabul                30-Sep-13       December 2013
                  ANP Hospital—Kabul                                  31-Dec-13       March 2014

                 Source: NTM-A

                 Progress Noted in Capability Milestone Ratings at
                 Afghan National Police Hospital
                 NTM-A conducted its first inspection of the ANPH using the Validation Tool in
                 December 2011 and rated the hospital as CM-3, which indicated that the hospital
                 required significant Coalition assistance to accomplish its mission.                 Subsequent
                 inspections were conducted in May 2012, February 2013, and May 2013 resulting in
                 progression to a CM-1B rating “capable of executing functions with Coalition
                 oversight only.”




10 │ DODIG-2014-072
                                                                            Working Towards Transition



In September 2013, the NTM-A Healthcare Validation Team conducted a pre-survey
focusing on departments that did not achieve a CM-1A rating in May 2013.              The
overall rating achieved in September 2013 was CM-1B. Although progress was noted
in various areas, additional effort was required in developing standard operating
procedures, improving staff training and continuing education, and better written
documentation for the provision of medical care to include current and thorough
patient progress notes written by physicians and nurses. See Table 2 for a comparison
of the CM ratings for the various departments within the ANPH.

The hospital successfully transitioned to Afghan-lead in December 2013.           NTM-A
stated that they would continue to assist ANPH and ANA hospitals post-transition
using a MFAT. This team would consist of a group of subject matter experts (Coalition
and Afghan) who will conduct follow-up visits 60 to 90 days post-transition. This
team will also be used to deploy to a healthcare facility to address targeted deficiencies
or problematic processes.




                                                                                        DODIG-2014-072 │ 11
Working Towards Transition



                 Table 2. ANPH Departmental Capability Milestone (CM) Ratings for 2011-2013

                            ANP Hospital                Dec-11       May-12        Feb-13       May-13         Sep-13
                  Anesthesia                           CM-2B         CM-1B         CM-2A        CM-2A          CM-1A
                  Biomedical Repair                    CM-4          CM-2B         CM-1A        CM-1A          NA
                  Blood Bank                           CM-2A         CM-1B         CM-1B        CM-1B          CM-1B
                  CSSD                                 CM-3          CM-2A         CM-1B        CM-1A          NA
                  Dental                               CM-4          CM-1B         CM-1A        CM-1A          NA
                  Emergency                            CM-3          CM-2A         CM-2A        CM-1B          CM-1A
                  Facilities Management                CM-3          CM-2B         CM-1B        CM-1B          CM-1B
                  Human Resources                      CM-2B         CM-2A         CM-1A        CM-1A          NA
                  Infection Prevention                 CM-3          CM-1B         CM-2B        CM-2A          CM-1B
                  Internal Medicine                    CM-2B         CM-1A         CM-1B        CM-1A          CM-1A
                  Laboratory                           CM-1B         CM-1B         CM-1A        CM-1A          NA
                  Leadership Council                   CM-2B         CM-1A         CM-1A        CM-1A          NA
                  MEDLOG                               CM-2B         CM-1B         CM-1B        CM-1B          CM-2A
                  Nursing                              CM-2B         CM-1B         CM-2A        CM-2A          CM-2A
                  Operating Theater                    CM-3          CM-2A         CM-1B        CM-1B          CM-1A
                  Outpatient                           CM-2B         CM-1A         CM-1B        CM-1B          CM-1B
                  Patient Administration               CM-2A         CM-1A         CM-1B        CM-1A          NA
                  Pharmacy                             CM-3          CM-2A         CM-1B        CM-1A          NA
                  Physical Therapy                     NA            CM-2A         CM-1B        CM-2A          CM-1B
                  Preventative Medicine                CM-2B         CM-1B         CM-2A        CM-1A          NA
                  Radiology                            CM-3          CM-1B         CM-2A        CM-1B          CM-1B
                  Surgery                              CM-2B         CM-1B         CM-1B        CM-1A          NA
                  Ultrasound                           NA            NA            CM-1A        CM-1A          NA
                  OVERALL RATING                       CM-3          CM-2A         CM-1B        CM-1B          CM-1B
                  Color-Coding is based on the level of Capability Milestone Rating with red as the lowest level of
                  CM-4; Orange as CM-3; Yellow as CM-2B; and variations of green for CM-2A, CM-1B, and CM-1A.
                  White are areas not evaluated by the Healthcare Validation Team. CM-1B is the transition decision
                  point.
                  CM-4 indicates the institution cannot accomplish its mission.
                  CM-3 indicates the institution cannot accomplish its mission without significant Coalition
                  assistance.
                  CM-2B indicates the institution can accomplish its mission but requires some Coalition assistance.
                  CM-2A indicates the institution is capable of executing functions with minimal Coalition assistance.
                  CM-1B indicates the institution is capable of executing functions with Coalition oversight only.
                  CM-1A indicates the institution is capable of autonomous operations.

                 Source: NTM-A


12 │ DODIG-2014-072
                                                                                Working Towards Transition



Afghan Air Force Casualty Evacuation
The ability to quickly transport combat casualties from the point of injury to more
definitive medical care is critical for the effective treatment and survival of the injured.
With the drawdown of U.S. and Coalition forces, there is a commensurate reduction in
the ability to evacuate casualties by air. In response, NATO Air Training Command–
Afghanistan (NATC-A) was working with the Afghan Air Force (AAF) to develop the
capability to transport casualties using C-208 and Mi-17 aircraft.

We found that significant progress was made by the AAF in conducting casualty
evacuation (CASEVAC) this past year.        Specifically, the AAF increased air CASEVAC
missions by 139 percent from 192 missions during the first quarter of 2013 to 460 in
the second quarter. Additionally, the AAF improved their response time from 72 hours
to less than 3 hours.

Figure 3. AAF Casualty Evacuation Movements


                                      2013 on pace to double 2012




                            414 as of
                           19 May 2013




Source: NATO Air Training Command–Afghanistan
Green: Projected CASEVAC mission at current OPTEMPO from 19 May 2013 - 31 Dec 2013.
Blue: 329 total CASEVAC flight in 2012.
Red: 414 CASEVAC from 1 Jan - May 19, 2013.

This critical capability was not specific to one location, but occurred throughout
the country as various AAF units received the necessary equipment and training to
conduct CASEVAC missions. At the time of this assessment, CASEVAC missions were
being conducted by the AAF at Kabul, Shindand, Kandahar, Herat, Jalalabad, and
Mazar-e-Sharif.




                                                                                          DODIG-2014-072 │ 13
Working Towards Transition



                 Additionally, the AAF, with assistance from NATC-A, developed an AAF flight medic
                 course to prepare AAF medics to conduct CASEVAC missions.                  This course is
                 2-weeks long with the first week spent in the classroom learning flight physiology
                 and the second week practicing clinical skills on the flight line.




                      Figure 4. Mi-17 Casualty Evacuation Mission
                      Source: NTM-A


                 The first flight medic course was conducted in April 2013, at the 438 Air Expeditionary
                 Wing in Kabul. It graduated 17 AAF personnel to serve as flight medics and assist
                 in the care of ANSF casualties.

                 The AAF Surgeon General cited the importance of the development of an effective
                 air CASEVAC capability:              “Before, we relied on ISAF for CASEVAC support.   But
                 now, with the steps that the Afghan Air Force has taken, we’ve been able to
                 continuously improve our own CASEVAC procedures,” and “we are beginning to
                 be able to rely on ourselves more and more.”              As the Afghans assume the lead
                 for security operations in Afghanistan, the efforts by the AAF to develop an
                 effective air CASEVAC capability will help to save lives and be key to maintaining
                 ANP effectiveness.




14 │ DODIG-2014-072
                                                                                           Working Towards Transition



Cooperation Among GIRoA Organizations
U.S. and Coalition advisory efforts have led to improved cooperation among the
various Afghan ministries. This increased cooperation among GIRoA organizations
had a positive effect on the development of the ANSF healthcare system and direct
medical support to the ANP.             One such example was the General Officer Steering
Council (GOSC), a forum where medical leaders from MoD, MoI, and MoPH meet to
discuss common problems and issues related to the healthcare capabilities and
medical services available for the ANSF. Previously, the topics of discussion for these
meetings were coordinated by ISAF medical personnel. However, now the Afghans
have taken the lead, developed the agenda, and coordinated the various presentations.




  Figure 5. Afghan-led General Officer Steering Council, May 29, 2013—Camp Eggers, Kabul
  Source: NTM-A



We observed the first Afghan-led GOSC in May 2013.                           Both the ANA and the
ANP Surgeons General attended the meeting, as well as a senior representative from
the MoPH. The major topic for discussion was medical logistics, which we found was
a significant challenge for these organizations.                The meeting was well-organized,
informative, and clearly run by the Afghans. At the end of the meeting, there was
a strong sense of professional satisfaction among the various Afghan attendees.
Planning for future topics included discussion and support for the development of an
Inter-Ministerial Council which would focus on national and international cooperative
efforts to reduce the casualty rate for security forces and civilians.




                                                                                                     DODIG-2014-072 │ 15
Working Towards Transition




                      Figure 6. ABP Medical Officer with ANA Hospital Commander at Paktiya Regional Military Hospital
                      Source: DoD IG-SPO


                 Increased cooperation among the ministries was also evident regarding the
                 medical care provided to ANP casualties.                     The MoPH made its medical facilities
                 available to treat casualties, and we did not hear any complaints that ANP patients
                 had been turned away. Additionally, we were informed by ANA medical leaders at
                 the Army’s regional hospitals that policemen received care at their facilities and
                 there was no difference in the medical care that was provided to soldiers and
                 policemen.          Furthermore, we spoke with ANP patients, several of whom were
                 undergoing treatment at an ANA hospital, and they indicated that they were
                 generally satisfied with the medical care that they received.




16 │ DODIG-2014-072
             Part II. Challenges




Part II
Challenges




               DODIG-2014-072 │ 17
                                                                                       Observation 1




Observation 1
Point-of-Injury Care
ANP personnel were unable to render effective point-of-injury care (self-aid and
buddy-aid).

This occurred because the majority of police personnel did not have individual
first-aid kits available when conducting security operations. Neither did they have
access to tourniquets and pressure dressings necessary to stop blood loss from
injuries incurred on the battlefield.

Additionally, although 10 hours of first-aid training was included in the ANP Basic
Patrolman Course, not all policemen had attended this training and therefore lacked
basic life saving measures.

Furthermore, there was little evidence of a training program to improve or sustain
the effectiveness of individual first-aid skills.

As a result, ANP policemen were unable to provide effective care for injured
personnel, which may result in increased mortality and have a demoralizing effect on
ANP personnel.



Applicable Criteria
(See Appendix C, number 13, 14, and 17, and for additional details.)

Afghan National Police Training General Command, Afghan National Police Initial
Police Training Course Overview, v2.0, dated July 2012.

Afghan National Police Training General Command, Non-Commissioned Officer
Eight Week Police Course Overview, dated February 2010.

Afghan National Police Training General Command, Operations Training for the
Fielded Force, v1.2, dated April 2012.


Discussion
The ANP were unable to conduct effective point-of-injury care (self-aid and buddy-
aid) due to the lack of appropriate medical supplies and training. Individual Afghan




                                                                                   DODIG-2014-072 │ 19
Observation 1



                 First-Aid Kits (AFAKs) were lacking, and first-aid refresher training and combat
                 life saver training was inadequate or not provided at all. At the ministerial level,
                 it was believed that the ANP personnel had the required equipment and training.
                 Nevertheless, approximately 20,000 police personnel had not attended the
                 initial police training course (IPTC), and therefore they had no first-aid training.
                 Furthermore, we found an insufficient number of ANP medics on the battlefield
                 (see Observation 2 for the discussion of ANP medics), thus the reliance on
                 point-of-injury care consisted mainly of self-aid and buddy-aid.


                 Afghan First-Aid Kits
                 According to NTM-A, the AFAK is an organizational clothing and individual
                 equipment2 item intended to be issued to the ANP once they completed their
                 initial training. However, during our visit, we could not find evidence of the AFAK
                 being issued to ANP upon completion of their training.                                        Inside the AFAK pouch,
                 there are three items: a nasopharyngeal airway tube,                                      3
                                                                                                               tactical tourniquet, and
                 trauma wound dressing (pressure bandage). In visits to the ANP Regional Training
                 Command in Kandahar and a Provincial Headquarters Clinic in Mazar-e-Sharif,
                 the police were able to produce AFAKs in storage which contained the three items.
                 However, we were unable to locate AFAKs at the remaining 10 clinics we visited in
                 Kabul, Paktiya, Nangahar, Kandahar, and Balkh Provinces.

                 During our assessment, we interviewed ANP casualties from various police pillars4
                 who, when injured, did not receive self-aid because neither they nor their unit had
                 AFAKs. During our interviews, injured policemen reported that they often did not
                 receive any initial first-aid treatment but, instead, were put into the first vehicle
                 that was available and transported to the nearest medical facility.

                 The lack of AFAKs may be due to the lack of sufficient attendance in the IPTC
                 or refresher (sustainment) training.                          Although several MoI and ANP leaders we
                 interviewed believed that saving lives was important and that the police force had
                 adequate medical equipment and training, this was not substantiated by our
                 observations in the field.


                 	 2	
                       Standardizing ANSF organizational clothing and individual equipment approval documents include the ANP Basis of Issue
                      Plan, dated October 21, 2007. The plan includes seasonal clothing, winter clothing, physical training clothing, individual
                      equipment (inclusive of the AFAK), unit specific items, and unit controlled items.
                 	3	
                       Nasopharyngeal airway tubes are designed to be inserted into the nasal passageway to secure an open airway; this is seen
                      typically with a semiconscious patient not tolerating an oral airway.
                 	 4	
                       The Ministry of Interior’s Afghan National Police is comprised of various types of police organizations referred to as pillars
                      including the Afghan Uniform Police (AUP), Afghan National Civil Order Police (ANCOP), and Afghan Border Police (ABP).
                      See Appendix D.




20 │ DODIG-2014-072
                                                                                                             Observation 1




 Figure 7. Contents of an Afghan First-Aid Kit at the Provincial Headquarters AUP Clinic, Mazar-e-Sharif
 Source: DoD IG-SPO


In Kabul, MoI leaders asserted that every policeman had one AFAK and each medic
had three AFAKs, while ANCOP and ABP leaders in the provinces reported that
not all their police had AFAKs. An ABP Zone Commander justified his policemen
not having first-aid kits by reasoning that his medics had those items available
to them when they conducted operations, indicating a poor understanding of the
basic field requirement for point-of-injury care.                   A senior medical subject matter
expert in Kandahar responsible for the oversight of ANP medical development
had seen firsthand only about 30 AFAKs.                     Realizing that there were not enough
AFAKs for each patrolman, the U.S. and Coalition advisors worked with the ANP to
order them.      Additionally, subsequent to our visit, IJC and NTM-A began to track
the number of AFAKs for all police pillars and was working with MoI to improve
the availability of AFAKs to the ANP.


Police Training
There were a significant number of policemen who had not attended the IPTC
(see Table 3.) In accordance with the description of the IPTC course, new police
recruits received 10 hours of basic first-aid training and other first responder
topics such as “Handling a Dispute,” “Post Blast Scene Management,” and “Traffic
Collision.” After the IPTC, the new patrolman should be able to administer first-aid
to injured policemen with life threatening injuries.




                                                                                                           DODIG-2014-072 │ 21
Observation 1



                 Table 3. Patrolmen Numbers Untrained (non-commissioned officers not included)

                                              Untrained Afghan National Police as of August 2013
                                                 Patrolmen (PM)              Patrolmen                 Percent
                            ANP Pillar              Untrained                 Tashkil                 Untrained
                      AUP                            15,058                   59,318                     25%
                      ABP                             2,592                   14,565                     18%
                      ANCOP *                             4                      10                      40%
                      Total PM                       17,654                   73,893                     24%
                  *ANCOP personnel are primarily non-commissioned officers (NCOs) and attend a specific NCO
                   course for their entry-level police training. This chart only includes the number of basic patrolmen
                   under the level of NCO.
                 Source: NTM-A

                 However, one in four patrolmen had not received their initial police training, and thus
                 many were untrained in basic life-saving measures. At the time of our visit, NTM-A and
                 IJC asserted they were working with MoI to reduce the number of “untrained” police
                 personnel. Ensuring that personnel receive initial police training, to include 10 hours
                 of basic first-aid training, would help improve the ANP’s ability to provide first aid at the
                 point of injury.

                 The Commandant at the ANP Training General Command (TGC) asserted that the
                 first-aid training the police received in the basic or non-commissioned officers (NCO)
                 courses was not enough; they also needed additional refresher or sustainment training.
                 Additionally, he stated that unit-level commanders were responsible for conducting
                 sustainment or refresher training. Each Provincial Chief of Police had a training unit
                 to assist his commanders with this critical task and a training director to focus on
                 various specialty and refresher training requirements for units in the province.
                 There were 34 ANP training units, one in each of the 34 provinces. The training units
                 had copies of the programs of instruction and required training material, including
                 first-aid refresher.        However, the Commandant was informed by policemen in the
                 field that the refresher training was not being conducted. In response, the NTM-A
                 was working with the ANP TGC Commandant and the Provincial Chiefs of Police and
                 various police commanders to ensure that a viable refresher training program, to
                 include first-aid skills, was implemented.


                 Additional Medical Training Available to the Police
                 There were a limited number of police medics available at the point of injury.
                 Providing additional medical training to non-medical police personnel would
                 increase their ability to provide first aid at the point of injury. During our assessment,
                 we observed limited evidence of this type of training being offered to the various
                 police units.           Courses on combat life-saver skills were provided by some police

22 │ DODIG-2014-072
                                                                                                   Observation 1



units usually through the efforts of the IJC advisory teams. The courses were taught
by Coalition forces, contractors, non-governmental organizations, and the police
pillars of the ANSF. However, these individual courses were not standardized nor
approved by the MoI.

Listed below are some of the first-aid courses that were conducted and offered at
varied police units:

          •	 “Combat Lifesaver Skills (CLS) Training” (Coalition forces/2 days) AUP basic
              combat lifesaving procedures;

          •	 “Combat Life Support Course,” (Contractor/3 days), the course is made
              available to the AUP, ANCOP, ABP, and any other MoI ANP unit;

          •	 ABP “CLS Class” (4 days); and

          •	 International Committee of the Red Cross (ICRC) “First-Aid Training” (NGO/3
              days), AUP, and ALP training.




  Figure 8. A Security Forces Assistance Team Medic Providing CLS Training to AUP Personnel at
  Provincial Headquarters
  Source: IJC


                                                                                                 DODIG-2014-072 │ 23
Observation 1



                 Subsequent to our visit, IJC assisted
                 MoI and MoD to develop a standardized
                 combat lifesaver course curriculum,
                 which was piloted in late fall of 2013.
                 As of February 2014, the ANSF intend to
                 provide courses at 11 Afghan Regional
                 Training Centers.       On the battlefield,
                 trained ANP medical personnel had only
                 limited ability to provide immediate
                 medical care at the point of injury.
                 Within the United States Army, the
                 combat lifesaver course was developed
                 as a bridge between the self-aid/
                 buddy-aid     (first-aid)   training    given
                 to all soldiers during basic training
                 and the medical training given to the
                 combat medic. The combat lifesaver is           Figure 9. Security Forces Assistance Team
                                                                 Providing Train-the-Trainer Combat Lifesaver
                 a nonmedical soldier who can provide            Course at AUP Reserve Kandak in Qalat, Zabul
                 lifesaving measures as a secondary              Province (April 1-3, 2013)
                                                                 Source: IJC
                 mission as his/her primary (combat)
                 mission allows.

                 Adequate first-aid training and combat life-saver skills are crucial to the ANP,
                 given the increasing number of casualties sustained and the limited number of
                 medical personnel on the battlefield.


                 Conclusion
                 The AUP, ANCOP, and ABP’s lack of basic first-aid kits and basic first-aid training
                 resulted in an inability to render effective point-of-injury care to their fellow
                 policemen and to themselves.            Commanders need to train their personnel so
                 they are proficient with basic life-saving skills.    This will not only save lives, but
                 improve morale by showing ANP personnel that, if injured, there will be trained
                 individuals available to provide effective first aid. With ground evacuation as the
                 primary means of patient transport and the long distances required to get the
                 injured to a medical treatment facility, implementing effective basic first aid at the
                 point of injury is critical to saving lives.




24 │ DODIG-2014-072
                                                                                                      Observation 1



Recommendation, Management Comments, and
Our Response

         Recommendation 1
         International Security Assistance Force Joint Command, in coordination
         with the North Atlantic Treaty Organization Training Mission–
         Afghanistan and Combined Security Transition Command–Afghanistan,
         advise and assist the Afghan Ministry of Interior and Afghan National
         Police to:

                  a.	 Develop a policy for the issuance and use of Afghan
                      First-Aid Kits that includes provisions for the procurement,
                      distribution, issuance, and replenishment of the first-aid
                      kits.

                  b.	 Provide oversight to ensure that Afghan National
                      Police      personnel     have     the      appropriate     medical
                      supplies,     including    an      Afghan     First-Aid     Kit,   to
                      effectively render first aid during police operations.

                  c.	 Identify the population of untrained police and ensure these
                      individuals are afforded first-aid training to include the use
                      of an Afghan First-Aid Kit.

                  d.	 Develop additional trauma training which is beyond
                      the 10-hour basic first-aid course offered to non-
                      medic personnel in basic training, such as Combat
                      Lifesaver Skills.



International Security Assistance Force Joint Command
IJC   concurred   with        recommendations     1.a,    1.b,    1.c,   and    1.d   without   any
additional comments.


Our Response
The response from IJC was partially responsive.                   While concurring with each
recommendation, IJC did not specify what actions it had already taken or planned to
take for implementing the recommendations. We request that IJC provide an update
within 60 days after the issuance of the final report describing what actions it has
already taken or plans to take for implementing each recommendation.
                                                                                                  DODIG-2014-072 │ 25
                                                                                          Observation 2




Observation 2
Afghan National Police Medics
The ANP did not have sufficient medics deployed to provide medical care to injured
policemen at the point of injury. Additionally, these medics did not have the proper
equipment to conduct effective life-saving measures.

This occurred, in part, because the ANP Tashkil authorization for medics was inadequate
given the increase in ANP casualties, and MoI and ANP leaders did not understand or
accept that medical care being provided was inadequate.

Furthermore, some medics, once trained in the 8-week medic course, were being
reassigned to other positions and were not available to support ANP field operations.

Further complicating matters, trained medics had not been issued medical bags
with the required equipment and medical supplies to provide effective first aid to
ANP casualties.

The lack of medics and insufficient medical equipment has resulted in situations
where injured policemen did not receive the necessary treatment in a timely manner,
leading to increased suffering and mortality.



Applicable Criteria
(See Appendix C, number 9, 10, and 11, for additional details.)

Solar Year 1391 Tashkil.         Provides Ministry of Interior-authorized personnel
information for Solar Year 1391 (equivalent to mid-2011 through mid-2012). Includes
an authorized listing of personnel positions identified by job-type and sorted into
specific police units.

Solar Year 1392 Tashkil.         Provides Ministry of Interior-authorized personnel
information for Solar Year 1392 (equivalent to mid-2012 through mid-2013).

Tashkil Order of the Ministry of Interior of GIRoA – Number 51, Dissemination and
Implementation of MoI 1392 Tashkil, received April 13, 2013.




                                                                                      DODIG-2014-072 │ 27
Observation 2



                 Discussion
                 ANP medics are police personnel who have successfully completed an 8-week
                 Trauma Assistance Personnel (TAP) course.       These individuals play a vital role in
                 providing medical support to ANP casualties from the point of injury to patient
                 transport to the next level of medical care. Since the ANSF assumed the lead for
                 security operations in the summer 2013, the casualty rate for the ANSF has
                 increased dramatically, especially for the police units patrolling the streets and
                 protecting the borders. Consequently, it is imperative to have an adequate number
                 of trained medical personnel with the appropriate medical equipment to properly
                 care for these casualties.

                 In June 2013, we visited several AUP, ABP, and ANCOP headquarters and their
                 associated medical clinics, in northern, eastern, and southern Afghanistan. During
                 these visits, we spoke with senior police leaders, ANP medical personnel, and
                 Coalition advisors to determine the extent to which the ANP were capable of providing
                 effective medical care at the point of injury. Our sources confirmed that in most
                 cases the ANP did not have sufficient numbers of trained medics available with
                 the necessary medical equipment to treat casualties and were therefore generally
                 unable to provide the medical care needed.


                 Tashkil (ANP Personnel Positions)
                 The Tashkil is an official GIRoA document that is updated annually and includes
                 an authorized listing of the required number of personnel by position and rank. It
                 is similar to what the United States Army refers to as a table of organization and
                 equipment, and is delineated by unit type. It also provides the required quantity of
                 equipment by unit and type. In accordance with ISAF plans to support the development
                 of the MoI and transition to Afghan-lead, the Solar Year (SY) 1392 Tashkil and
                 Tashkil database were produced by MoI with NTM-A support.          This was the first
                 time MoI took the lead in developing the Tashkil, and their further development of
                 that plan will be an ongoing responsibility.

                 Table 4 lists the number of authorized medics by police pillar and ratio of medics
                 per policemen. For SY 1392, the ratio of medic-related positions to total number
                 of policemen per police pillar was:       AUP 1:297, ABP 1:25, and ANCOP 1:55.      In
                 comparison, the ratio for ANA was 1 medic for 16 soldiers. The ANA intends to
                 increase the number of medics per company to 15, which will result in a ratio of
                 ANA medics to soldiers of 1:8. There are no established standards to determine the
                 appropriate number of medics to support police operations. However, given the higher



28 │ DODIG-2014-072
                                                                                                                                           Observation 2



      ANP casualty rate, which is reportedly five times higher than the ANA’s, the ANP appeared
      to be deficient in the number of medics to ANP personnel.

      Table 4. List of Medics by Pillar and Ratio of Medics per Policemen

                                          Solar Year 1391 Tashkil - Authorized                   Solar Year 1392 Tashkil - Authorized
         Type of Medics
                                           AUP         ABP         ANCOP        SUM               AUP         ABP        ANCOP          SUM
Ambulance Driver / Medical                       2         87            97         186                 -         93           92          185
Technician
Deputy Squad Leader / Medic                    10          90             -         100               10             -            -             10
Driver / Medical Technician                      1             -          -             1              1             -            -              1
Evacuation Sergeant                            67              -          -            67              2             -            -             2
Medic                                            -             -         54            54             27             7         14               48
Medic / Driver                                296         134             -         430             250              -            -        250
Medical Clinic NCOIC                             1             -          -             1              1             -            -              1
Medical Clinic Sergeant                          1             -          -             1              1             -            -              1

Medical Sergeant                                 -                                  146                2             -                          65
                                                          134            12                                                    63
Medical Technician                               6             -          -             6               -            -            -              -
Platoon Sergeant / Medic                         -             -      309           309                 -            -            9             9
Special Weapons Police                           -             -    1,181         1,181                 -            -         89               89
Officer / Medic
Squad Commanders / Medic                         -        804             -         804                 -        834              -        834
Police Medic, Pillar Total                    384      1,249        1,653         3,286             294          934         267         1,495
Tashkil Auth., Pillar Total               85,367      23,090       14,541     122,998           87,401       23,435      14,588        125,424
Medic : Police                            1 : 222     1 : 18       1:9        1 : 37            1 : 297     1 : 25       1 : 55        1 : 84
                                          SY1391 Tashkil - Authorized                           SY1392 Tashkil - Authorized 

      Source: NTM-A

      As noted in Table 4, SY 1392 reflected a significant reduction in the number of
      ANP authorized medics from SY 1391. An NTM-A senior medical advisor asserted
      one reason for this decrease was the redistribution of police personnel after the
      disestablishment of the AUP police zones.5 The total number of police personnel did
      not decrease with the re-organization of the police zones; however, the number
      of medic positions for the AUP, ABP, and ANCOP police pillars decreased by more
      than half to a total of 1495 in SY 1392. NTM-A could not explain why the number of


      	5	
            The disestablishment of the police zones occurred at the beginning of Solar Year 1392 (March 21, 2013). The Tashkil of
            the six regional zones were dissolved and reorganized into the Tashkil of the six Type A Provincial Headquarters (Herat,
            Kandahar, Helmand, Nangahar, Paktiya, and Balkh).




                                                                                                                                        DODIG-2014-072 │ 29
Observation 2



                 police medic positions decreased from SY 1391 to SY 1392; however, they were
                 working with MoI to conduct an accounting of these positions.

                 Subsequent to our visit, the ANP Surgeon General, with the assistance of NTM-A,
                 prepared his SY 1393 Tashkil request.                  The Surgeon General calculated the
                 number of medics required based on the type and size of the police headquarters
                 and associated medical clinics.              He concluded that an additional 370 ANP medic
                 positions were required for SY 1393. NTM-A was working with the ANP Surgeon
                 General to prepare his defense to MoI for the additional medic positions.
                 Additionally, NTM-A planned to assist the Surgeon General to determine and
                 prioritize the work locations for the additional medics once the Tashkil was approved.


                 Trained ANP Medics Removed From Medic Positions
                 Coalition forces have advised senior ANP leadership to assign policemen who completed
                 the 8-week TAP training program into the appropriate medic slots on the Tashkil.
                 However, we were informed of several situations where TAP-trained individuals
                 were re-assigned to conduct non-medical duties, such as the police commander’s
                 driver.       One medical officer from a combined AUP/ANCOP medical clinic reported
                 that 50 percent of his assigned medics were not working in his clinic and were
                 posted elsewhere by the police unit commander. This practice contributed to the
                 shortage of ANP medics and negatively impacted the medical support available
                 for treating ANP casualties. IJC police and medical advisors explained that police
                 commanders believed that police personnel who completed the TAP training
                 course were literate and more desirable to fill administrative positions supporting
                 the police commander than working in a clinic.              The advisors continued to work
                 with police leadership to ensure that TAP-trained personnel were placed in medic
                 Tashkil positions and remained working in police medical clinics.

                 The ANP Surgeon General was aware of this problem. He previously sent out a cipher6
                      to police units explaining the importance of a medic in units and directing that
                 medics should be retained in their authorized positions. However, he did not have
                 the authority to direct police commanders to comply. NTM-A was working with the
                 Surgeon General and MoI to improve the utilization of trained medics.




                 	6	
                       A cipher is an Afghan written order.




30 │ DODIG-2014-072
                                                                                         Observation 2



Medical Equipment for Trained ANP Medics
Previously, NTM-A provided first-aid bags to medics who completed the TAP
training program.       The ANP Office of the Surgeon General has now assumed this
responsibility but was having difficulty supplying medic bags to TAP graduates.
Specifically, a large order for TAP medic bags was placed by MoI early in 2013;
however, the vendor who supplied the bags did not have the proper license to sell
medical supplies, and Afghan customs officials prevented the release of the items
once they arrived in country.               As a result, ANP medics who graduated from
TAP after October 2012 were not issued appropriate medic bags. NTM-A is currently
coordinating with the OTSG and MoI to get the bags released from customs.
Additionally, NTM-A is assisting OTSG to develop a sustainable MoI process for
future procurement and issuance of these medic bags.

The medical readiness officer from the OTSG asserted that all policemen had the
AFAK, and each medic had a TAP medic bag. During our fieldwork we rarely found
this to be true. A Coalition forces official in Kandahar explained that he had not
seen a TAP medic bag on any of his ANP visits during his 10-month assignment. We
were able to locate medical supplies in the AUP clinic in Mazar-e-Sharif that included
the TAP medic bags, but the perishable contents inside had expired. Additionally,
ANP medics showed us their medic bags at an ABP clinic in Paktiya province.




 Figure 10. TAP Medic Bags at 2nd Zone ABP Clinic, Paktiya
 Source: DoD IG-SPO




                                                                                     DODIG-2014-072 │ 31
Observation 2



                 Conclusion
                 The ANP did not have an adequate number of trained medics or the proper medical
                 equipment to effectively care for police casualties. Action is necessary to:

                          •	 validate and adjust the number of ANP medics on the Tashkil;

                          •	 ensure TAP-trained policemen were assigned to, and remained in, medic
                             positions; and

                          •	 develop and implement reliable procedures for the issuance and
                             replenishment of ANP medic first-aid bags.

                 These actions will serve to significantly increase the quality of battlefield casualty
                 care and survivability.


                 Recommendations, Management Comments, and
                 Our Response

                          Recommendation 2
                          International Security Assistance Force Joint Command, in coordination
                          with the North Atlantic Treaty Organization Training Mission–
                          Afghanistan and Combined Security Transition Command–Afghanistan,
                          advise and assist Ministry of Interior and the Afghan National Police to:

                                       a.	 Determine the appropriate number of Afghan National
                                           Police medic positions required to provide effective
                                           medical support to various police units and update
                                           Tashkils accordingly.

                                       b.	 Ensure that Afghan National Police medic Tashkil
                                           positions are filled with appropriately trained police
                                           personnel.

                                       c.	 Ensure that trained medics currently serving in medic
                                           positions receive the proper equipment, to include an
                                           appropriate medic first-aid kit, in order to conduct
                                           effective point-of-injury care.




32 │ DODIG-2014-072
                                                                                       Observation 2



International Security Assistance Force Joint Command
IJC concurred with recommendations 2.a, 2.b, and 2.c without additional comment.


Our Response
The response from IJC was partially responsive.         While concurring with each
recommendation, IJC did not specify what actions it had already taken or planned
to take for implementing the recommendations.       We request that IJC provide an
update within 60 days after the issuance of the final report describing what actions
it has already taken or plans to take for implementing each recommendations.




                                                                                   DODIG-2014-072 │ 33
                                                                                            Observation 3




Observation 3
Trauma Assistance Personnel Training Program
The ANP medic training program was ineffective and may not be sustainable.

This occurred because the contractor responsible for the Trauma Assistance Personnel
(TAP) training program was unable to produce the required number of medics because
MoI and police commanders did not identify and send sufficient numbers of students to
fill the TAP courses.

Additionally, several ANP training centers transitioned to Afghan control resulting in
fewer locations for the contractor to conduct this training due to security concerns.

As a result, the lack of a sustainable ANP medic training program inhibited ability to
produce the required number of qualified medics, thereby jeopardizing the effectiveness
of the ANP healthcare system at a time of increasing casualties.



Applicable Criteria
(See Appendix C, number 4 and 19, for additional details.)

Afghan National Police Training General Command Training Catalogue, “Afghan
National Security Forces Trauma Assistance Personnel,” Course Overview.

North Atlantic Training Mission–Afghanistan/Combined Security Transition Command–
Afghanistan MoI Mentoring and Training Statement of Work (W91CRB-11-C-0053),
Section 9.6, “Trauma Assistance Personnel Course,” March 31, 2012.


Discussion
The contractor-provided ANP medic training program, also referred to as the TAP
course, did not produce the required number of trained medics. As of July 2013,
the contractor had trained 1,211 ANP medics of the 2,000 required.              Since the
TAP course was not officially approved and endorsed by the MoI, the contractor
was largely unable to gain MoI and ANP support to recruit sufficient ANP medic
course participants.     Additionally, the number of training locations where the
contractor could securely provide TAP training decreased due to the transition of
ANP training centers to Afghan control.




                                                                                        DODIG-2014-072 │ 35
Observation 3



                 The Trauma Assistance Personnel Program
                 In 2008, the Afghanistan Civilian Advisor Support program7 initiated the TAP training
                 program to develop ANP medics to address the high percentages of preventable
                 trauma-related mortalities among the ANP.                               As of the summer 2012, 540 medics
                 were trained.

                 In 2012, NTM-A/CSTC-A modified the “MoI Training and Mentoring” statement of
                 work to require a contractor to manage the TAP training program and to train
                 2,000 ANP medics at selected sites by November 10, 2013.                                             The contractor was
                 additionally required to train no fewer than 150 train-the-trainers in order to increase
                 ANP effectiveness in pre-hospital medical care and to provide for ANP TAP training
                 self-sustainment.

                 The TAP training program is equivalent to the ANA combat medic training. It is an
                 8-week, hands-on training course educating ANP personnel on life-saving skills to
                 include the following major topics (see Appendix E for the complete listing of
                 course topics):

                               •	 basic first aid and hygiene,

                               •	 extrication,

                               •	 immobilization,

                               •	 use of tourniquets,

                               •	 medication and fluid administration,

                               •	 trauma assessment and emergency management skills,

                               •	 combat life saver skills, and

                               •	 trauma combat casualty care.




                 	7	
                       Under the Afghanistan Civilian Advisor Support program, a contractor provided at least 580 civilian police advisors to
                       advise, train, and mentor the ANP and MoI. These police advisors assisted the U.S. State Department and the CSTC-A to
                       meet the U.S. goals of increasing Afghanistan’s overall capability to provide police presence, improve public security, and
                       support the rule of law.




36 │ DODIG-2014-072
                                                                                                                Observation 3




 Figure 11. Contractor Instructor Assists TAP Students to Practice Evacuating a Patient from a Vehicle
 Source: NTM-A



Challenges in Producing the Required Number of ANP Medics
While the baseline target for contractor-provided TAP training was 2,000 TAP Medics
and 150 qualified train-the-trainers by November 2013, as of October 2013 when
the Afghans assumed control of the training program, the contractor had trained
1,288 TAP basic students and 146 train-the-trainers.

Various factors contributed to the challenges which the contractor experienced in
delivering the TAP training program and producing the required number of medics.
The TAP training program was not approved by MoI, and the ANP TGC had not listed
the contractor-provided TAP training program as an official course.                              As a result,
the contractor reported it had received limited support from the ANP in recruiting
students for the training, resulting in low student participation and graduation, as
well as instances where the course had to be canceled for lack of sufficient participation.

Initially, most ANP training sites were supported by Coalition forces, which made it
easier for the contractor to manage the logistics required to train at those locations.
Also, Coalition forces provided the necessary security and force protection for the
TAP training program to be conducted at these Afghan locations. In 2012, however,
ANP training centers began transitioning to Afghan-lead.                         Once a training center
transitioned to Afghan control, Coalition forces reduced their presence, and this
reduced the force protection for the contracted instructors teaching the TAP training.




                                                                                                            DODIG-2014-072 │ 37
Observation 3



                 Consequently, the contractor stopped teaching at these transitioned ANP training
                 centers and tried to find other locations to conduct their training but was unable
                 to do so. As of July 2013, the contractor was only using the Helmand Lashkar Gah
                 Training Center to provide TAP training.                Although the Regional Training Center
                 in Kandahar was not transitioned to Afghan-lead, the contractor no longer
                 used this location to teach TAP due to increased security concerns related to
                 insurgents fighting in the area and pending transition of that location.                       Table 5
                 identifies the locations where the contractor had offered the TAP training program and
                 their transition dates.

                 Table 5. Transition of ANP Training Centers
                                 Schedule for Transition of ANP Training Centers Coalition to Afghan Control
                                Training Center - District               Projected Date                Status
                      Regional Training Center - Nangahar	               March 30, 2012               Complete
                      Regional Training Center - Gardez                December 1, 2012               Complete
                      Central Training Center - Kabul                     June 29, 2013               Complete
                      Regional Training Center - Herat                    June 30, 2013               Complete
                      Regional Training Center - Kunduz                 August 24, 2013               Complete
                      Lashkar Gah Training Center - Helmand              December 2013                Complete
                      Regional Training Center - Kandahar                Date is pending              Pending

                 Source: NTM-A


                 Progress in Transitioning TAP Training Program to Afghans
                 In the Spring 2013, NTM-A advisors worked with the contractor and MoI and ANP TGC to
                 effect an orderly transition of TAP training to Afghan-lead planned for November 2013.
                 The TAP training program was reviewed and approved by the ANP TGC Professional
                 Development Board on August 28, 2013, and is now listed as an official MoI course. In
                 September 2013, ANP medical trainers successfully took the lead on teaching the TAP
                 course with oversight provided by the contractor. In February 2014, the ANP graduated
                 12 TAP students from an Afghan-led program in Kabul. Their plans are to provide TAP
                 training at a total of eight training centers.

                 To help ANP train additional medics, ANA has offered to train police personnel in the
                 army’s combat medic course when they have seats available. NTM-A is working with the
                 ANP Surgeon General to ensure that MoI accepts the army’s course as a suitable substitute
                 for TAP training.




38 │ DODIG-2014-072
                                                                                           Observation 3




 Figure 12. ANP TAP Students Practice Transporting a Patient
 Source: NTM-A



Conclusion
The contractor was not able to graduate the required number of ANP medics because
they had an insufficient number of trainees. This significantly delayed the availability
for assignment of badly needed medics and jeopardized the ability of the ANP to
properly care for their combat-injured personnel, thus putting their lives at risk.


Recommendations, Management Comments, and
Our Response

         Recommendation 3.a
         North Atlantic Treaty Organization Training Mission–Afghanistan,
         in coordination with Combined Security Transition Command–
         Afghanistan, advise and assist Ministry of Interior to ensure that
         the Trauma Assistance Personnel training program is properly
         institutionalized and supported by Ministry of Interior and the Afghan
         National Police to produce the required medics to fill the Tashkil.




                                                                                       DODIG-2014-072 │ 39
Observation 3



                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A concurred with recommendation 3.a without any additional comment.


                 Our Response
                 The response from NTM-A was partially responsive.         While concurring with the
                 recommendation, NTM-A did not specify what actions it had already taken or
                 planned to take for implementing the recommendation. We request NTM-A provide
                 an update within 60 days after the issuance of the final report on the TAP training
                 program to include the number of ANP personnel trained after the MoI assumed
                 responsibility for the course. In addition, describe MoI’s plan for future iterations
                 of the TAP training program.



                         Recommendation 3.b
                         North Atlantic Treaty Organization Training Mission–Afghanistan, in
                         coordination with Ministry of Interior and Ministry of Defense, explore
                         the option of using the Afghan National Army Combat Medic Course as
                         a substitute for Trauma Assistance Personnel training, if needed, and
                         implement a plan to use this course as an additional program to train
                         Afghan National Police medics.


                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A nonconcurred with recommendation 3.b and explained that there was a
                 lack of commitment by the ANP to send police personnel to the MoI-sponsored
                 TAP course.    Since the ANA combat medic course and the ANP TAP course were
                 both 8-week programs and had similar curriculums, NTM-A inferred that the
                 ANP were not likely to send police personnel to the ANA’s combat medic course.
                 Additionally, NTM-A explained that there was little confidence that changing the
                 TAP course would improve ANP attendance.         NTM-A suggested that it would be
                 better to focus efforts on getting ANP leaders to commit to send their personnel to
                 the TAP course and then keep them, once trained, to serve as ANP medics.


                 Our Response
                 We   note     NTM-A’s   nonconcurrence   but   believe   NTM-A    misunderstood   our
                 recommendation.     We did not recommend and do not advocate changing the
                 ANA combat medic or ANP TAP curriculum.          We suggested that the ANA combat
                 medic course be considered a viable substitute for ANP medic training until the



40 │ DODIG-2014-072
                                                                                     Observation 3



MoI TAP training program was fully implemented and running effectively.
We agree with NTM-A that they should continue to work with MoI and ANP
leaders to commit to send their personnel to the MoI-sponsored TAP course.
The priority should be for the ANP to fill the available seats in their TAP course
before utilizing the ANA combat medic course.    We will request NTM-A provide
an update within 60 days after the issuance of the final report on this
clarified recommendation.




                                                                                 DODIG-2014-072 │ 41
                                                                                           Observation 4




Observation 4
Medical Transport of Afghan National Police Casualties
The ANP’s ability to provide en route care during the movement of casualties from
the point of injury to the next higher level of care was limited.

This occurred because ANP medics were not trained to provide en route care during
patient transport. Additionally, the ANP did not use their ambulances properly for
patient transport, nor were they adequately outfitted with the required medical
equipment and supplies.

Furthermore, although the MoD published an order allowing for the medical treatment of
ANP patients at ANA medical facilities, ANP casualties were at times delayed by security
personnel at ANA installation entry control points, impeding their transfer to the next
level of care.

As a result, ANP casualties often did not receive timely required medical care which is
likely to lead to the worsening of the casualty’s medical condition and possibly
unnecessary loss of life.



Applicable Criteria
(See Appendix C, number 8, 16 and 20, for additional details.)

Ministry of Defense Beneficiary’s Treatment Policy at the Afghan National Army
Medical Facilities, approved, dated May 23, 2012, with Attachment 3: Memorandum
of Agreement between Minister of Defense, Minister of Interior, Minister of Public
Health and Combined Security Transition Command–Afghanistan.

Ministry of Interior Order to the Support and Admin Deputy Office, OTSG, Medical
Readiness Department for the Afghan National Police Emergency Ambulance Vehicle
Operation Standard Operating Procedures, dated March 24, 2010.

Memorandum of Agreement (MOA) Between Minister of Defense (MoD) and
Minister of Interior to Work Together for the Health Care Needs of the Afghan National
Security Forces, dated June 5, 2009.




                                                                                       DODIG-2014-072 │ 43
Observation 4



                 Discussion
                 The primary means for ANP casualties to be moved to the next higher level of
                 care was by ground evacuation, also known as casualty evacuation. 8However, we
                 found there was limited ANP capability to effectively evacuate casualties by ground
                 means and to provide appropriate en route care.9                                  Training of ANP personnel to
                 provide en route care was inadequate, and the ambulances were not adequately
                 equipped or properly utilized for patient transport.


                 En Route Care
                 NTM-A is working with MoD and MoI to develop patient treatment and evacuation
                 capabilities. However, with the exception of the AAF’s flight medic course, we did
                 not find any evidence of ANP training or advisory focus to prepare ANP medics
                 to provide en route care during patient transport.                                    ANP casualties were often
                 transported in non-medical vehicles, as opposed to ambulances, and therefore did
                 not have trained personnel or the medical supplies needed to provide effective
                 en route care.

                 During the assessment, we received reports of several incidents in which wounded
                 police did not receive any en route care from the battlefield to the medical
                 facilities.       A senior AUP official in Kandahar relayed a story regarding one of his
                 policemen injured from an improvised explosive device.                                   The policeman sustained
                 eye trauma and a wounded shoulder from the blast. This individual did not receive
                 medical care until he arrived at the hospital to which he was transported by a
                 Ford Ranger pick-up truck.

                 Some factors affecting necessary en route care during ground transport were:

                                   •	 improper patient classification when requesting transport,

                                   •	 negligible planning/coordination for use of ambulances,

                                   •	 ambulance drivers not trained as medics who could not help stabilize
                                         and treat patients prior to transport, and

                                   •	 insufficient or no medical equipment on board the ambulance.

                 The AUP in Gamberi stated they did not use ambulances for police operations and
                 often transported their own wounded in the back of the Ranger pick-up trucks. We



                 	8	
                        Casualty Evacuation (CASEVAC) is a term used to refer to the movement of casualties aboard non-medical ground vehicles
                        or aircraft.
                 	 9	
                        En route care is medical treatment provided to a casualty while in transport to the next level of care.

44 │ DODIG-2014-072
                                                                                             Observation 4



did not hear any complaints from the ANP that ambulances were not available,
or they needed more because they did not have enough.

NTM-A, IJC, and subordinate units were developing patient evacuation plans. These
plans focused on ground medical evacuation and forward casualty care. Specifically,
the plans addressed the following:

             •	 improving ANSF ability to conduct en route medical care and
                  stabilization of patients during ground evacuation;

             •	 enhancing the communications capabilities and procedures for
                  submitting CASEVAC and medical evacuation requests; and

             •	 improving the decision-making process for determining what medical
                  facility (MoPH, MoD, or MoI) would receive the patient.

Utilization of Ambulances
We found that the ambulances at the ANP clinics we visited did not have adequate
equipment or inventory checklists as defined in the MoI “Emergency Ambulance Vehicle
Operations Standard Operating Procedures”, dated March 24, 2010. Nor were they
properly stocked with the appropriate medical supplies to operate effectively while
providing continued treatment on the ANP casualty. We visited 10 clinics and found that
the majority of the ambulances were un-equipped, with the exception of one ambulance
in Paktiya Province. This ambulance was equipped with a litter, stretcher, and limited
supplies of gauze and bandages (Figure 13). There were other ambulances in Kandahar
Province that were not available for patient transport because they were used to transport
and store clinic supplies due to the relocation of the clinic (Figure 14).




  Figure 13. Donated Korean Ambulance at 2nd Zone ABP Clinic, Paktiya
  Source: DoD IG-SPO

                                                                                         DODIG-2014-072 │ 45
Observation 4




                      Figure 14. Korean Ambulance Used to Transport and Store Medical Supplies at AUP Clinic, Kandahar
                      Source: DoD IG-SPO



                 Ministry of Interior Ambulance Oversight
                 The MoI OTSG was responsible for oversight of ANP ambulance operations. According
                 to the OTSG Medical Readiness (Patient Transport) Director, in June 2013, there were
                 629 ambulances supporting ANP operations.                        Ambulance types included Ranger,
                 Korean ambulances, High Mobility Multipurpose Wheeled Vehicle (HMMWV), and
                 patient transit vehicles.            The specific numbers of ambulance types are listed in
                 Table 6 and pictures are included in Figures 15-17.

                 Table 6. Afghan National Police Ambulances
                                                                                     Ambulances as of June 2013
                                                                      Ranger       Korean      HMMVV         Transit     Total
                      1   ANP Hospital                                   7            8            2            0         17
                      2   Drug Rehab Unit                                1            2            1            0          4
                      3   MoI Clinic                                     0            1            0            0          1
                      4   Central Units (Afghan Uniform Police)          9           14           10            0         33
                      5   Training Centers                               6           12           11            0         29
                      6   Afghan National Civil Order Police            88           10           95           56        249
                      7   Afghan Border Police                          20           12           52            0         84
                      8   Zones (Afghan Uniform Police)                 88           44           80            0        212
                                                                      219           103          251           56        629

                 Source: ANP, OTSG



46 │ DODIG-2014-072
                                                                                                             Observation 4




 Figure 15. Two Different Ford Ranger Ambulance/Ford Transit (side-by-side) at 3rd Brigade ANCOP Clinic,
 Mazar-e-Sharif
 Source: DoD IG-SPO


As discussed previously, we found the majority of ambulances did not have the
required medical supplies to render effective en route care.                         The OTSG Medical
Readiness Director explained the HMMWVs did not arrive with medical kits;
however, there were ambulance kits provided by NTM-A and available to stock
these ambulances. The Republic of Korea donated 103 ambulances which had some
initial outfitting of medical supplies and equipment. The OTSG Medical Readiness
Director explained that the OTSG desired to improve the outfitting and utilization of
ambulances. Accordingly, in the fall 2013, the OTSG, working with NTM-A, developed
a plan to generate a medical kit and contract for the kits to equip all ambulances. In
October 2013, OTSG conducted a complete inventory of ambulances, associated
medical supplies, and equipment and was working with NTM-A to determine the
necessary actions to fully equip the ambulances.




 Figure 16. HMMVV 1152 Ambulance at Provincial Headquarters AUP Clinic, Kandahar
 Source: DoD IG-SPO


                                                                                                           DODIG-2014-072 │ 47
Observation 4




                      Figure 17. Ford Ranger Ambulance and Donated Korean Ambulance at Provincial Headquarters Afghan
                      Uniform Police (AUP) Clinic, Kandahar (June 23, 2013)
                      Source: DoD IG-SPO



                 MoI Policy for Emergency Ambulance Vehicle Operations
                 A MoI order signed March 24, 2010, directs the establishment of a proper system
                 of ambulance performance and requires all units related to medical readiness to
                 follow the standard operation procedures (SOP) for emergency ambulance vehicle
                 operations. Some descriptive parts of the SOP include:

                              •	 Clinical officers responsibility to:

                                         {{   supervise the maintenance and inventory of the ambulance
                                              vehicles, and

                                         {{   maintain all ambulance checklists.

                              •	 Driver/medic responsibility to:

                                         {{   monitor the medical equipment,

                                         {{   verify the equipment on the checklist and that it is operational, and

                                         {{   reorder supplies if they become expired or consumed.

                              •	 Equipment required for operations, include:

                                         {{   two fully stocked equipment bags,

                                         {{   one oxygen tank with regulators,

                                         {{   one Automated External Defibrillator (AED),

                                         {{   one backboard,




48 │ DODIG-2014-072
                                                                                          Observation 4



                   {{   cervical collars,

                   {{   head blocks,

                   {{   one pediatric trauma kit,

                   {{   one vehicle safety kit, and

                   {{   one operator’s manual.

The SOP has significant procedures for vehicle safety, driver’s training, and vehicle
operation. Furthermore, there were procedures for the driver to follow, if he is a crew
member (first responder), to assist in patient care.

Although we found this SOP to be fairly complete, it did not identify the
responsibilities for the medic or medical provider in providing care at the point
of injury or for care en route during patient transport. An SOP that fully covers
medical support duties and responsibilities and which has been verified as having
been implemented could significantly enable the capability of the ANP to properly
care for injured personnel.


Patient Treatment Agreements
There are several versions of memorandums of agreement between the MoD, MoI,
MoPH, and Coalition forces intended to coordinate support for the healthcare
needs of the ANSF.        Yet none of these joint ministerial agreements were signed
and, evidently, none have been implemented.

However, the MoD had a policy pertaining to the treatment of individuals at ANA
medical facilities. This policy, dated May 2012, included an attached “Memorandum
of Agreement between Minister of Defense, Minister of Interior, Minister of Public
Health, and Combined Security Transition Command–Afghanistan.”            The goal of
this treatment policy is to create a clear, accurate and high quality ANA healthcare
system for receiving and treating patients that are included in the approved
beneficiary’s list at the ANA medical facilities.       Included in the beneficiaries
list were ANP personnel.         However, this treatment policy called for the injured
policemen to bring official documents from the OTSG in order to establish
eligibility for care at the ANA medical facility, an action which has proven to be
highly impractical in a medical emergency situation.

Although the MoD’s approved treatment policy included the eligibility for ANP
patients to receive care at ANA medical facilities, procedures were not in place at the




                                                                                      DODIG-2014-072 │ 49
Observation 4



                 ANA installation entry-control points to allow easy access to its medical facilities. We
                 received complaints in the field concerning delays in patient treatment due to the
                 time it took for ANP patients to get clearance to proceed through ANA checkpoints
                 to gain access to ANA hospitals. One senior advisor said that this denial of entry
                 to ANP personnel occurred every day.

                 ANP senior leaders disagreed over whether prompt access and care was being
                 provided to injured police by the ANA.                              One senior MoI leader stated, “We have
                 had reasonably good luck.                       We have never had a patient turned back from an
                 ANA facility.”            However, a senior hospital official at the ANPH was “not satisfied
                 with the delay in treatment of injured police” at ANA medical facilities.

                 Prevention of ANP casualty care also occurred at Coalition facilities.                                                       The
                 commander at the NATO Role 3 Multinational Medical Unit                                        10
                                                                                                                     in Kandahar said he
                 had problems with ANSF patients arriving at Kandahar Air Field entry control
                 points and gaining subsequent clearance for them to enter. The problems included
                 direct refusal to allow entry and communication challenges due to language
                 barriers. Reportedly, there were procedures in place for Kandahar security forces
                 guarding the gates to address this issue; however, successful implementation relied
                 on the Role 3 facility receiving prior notification that ANP patients were on their
                 way. The commander for the Role 3 facility informed us that they were coordinating
                 with MoI, MoD and base security to address these challenges and to improve
                 the process for patients to enter the Kandahar base.


                 Conclusion
                 The ANP’s ability to provide en route care during the ground movement of
                 casualties from the point of injury to the next higher level of care was impaired
                 due to improper use of and inadequately equipped/supplied ambulances.                                                         In
                 addition, the lack of effective coordination regarding ANP patients gaining
                 access to ANA installations and medical facilities delayed timely medical treatment
                 for ANP casualties. There were also coordination problems between ANA and the
                 Coalition regarding gaining access to the hospital on Kandahar base. If unaddressed,
                 these access issues could result in the worsening of the casualty’s medical condition
                 and possibly result in unnecessary loss of life.



                 	 10	
                         NATO Role 3 Multinational Medical Unit is a world-class combat trauma hospital that serves a unique population of
                         U.S. and Coalition forces, as well as Afghan National Army, National Police, and civilians wounded in the Southern
                         Afghanistan region.




50 │ DODIG-2014-072
                                                                               Observation 4



Recommendations, Management Comments, and
Our Response

    Recommendation 4
    International Security Assistance Force Joint Command, in coordination
    with North Atlantic Treaty Organization Training Mission–Afghanistan
    and Combined Security Transition Command–Afghanistan:

            a.	 Advise, assist, and monitor Ministry of Interior in the
               development of an effective Afghan National Police en route
               care capability, including proper use of ambulances and
               associated equipment.

            b.	 Advise and assist Ministry of Interior to ensure that
               Ministry of Interior standard operating procedures
               for ambulance operations are updated to include
               responsibilities for the medic and medical provider during
               point-of-injury care and en route care.

            c.	 Advise and assist Ministry of Interior and Afghan National
               Police to develop a sustainable en route care training
               program.

            d.	 Advise and assist Ministry of Interior to ensure all
               ambulances are properly equipped and that there is a
               sustainable system for procurement and replenishment of
               medical supplies.

            e.	 Conduct key leader engagements with Ministry of
               Interior and Afghan National Police leadership to increase
               utilization of ambulances and encourage the use of tactical
               ambulances where appropriate.

            f.	 Advise and assist Ministry of Interior and Ministry of
               Defense to determine if there are unnecessary delays at
               ANA installation entry control points when ANP casualties
               are transported to ANA medical facilities and to take
               appropriate action to minimize these delays.




                                                                             DODIG-2014-072 │ 51
Observation 4



                 International Security Assistance Force Joint Command
                 IJC concurred with recommendations 4.a, 4.b, 4.c, 4.d, 4.e, and 4.f without any
                 additional comments.


                 Our Response
                 The response from IJC was partially responsive.        While concurring with each
                 recommendation, IJC did not specify what actions it had already taken or planned to
                 take for implementing the recommendations. We request that IJC provide an update
                 within 60 days after the issuance of the final report describing what actions it has
                 already taken or plans to take for implementing each recommendation.




52 │ DODIG-2014-072
                                                                                                                                  Observation 5




Observation 5
Pharmacy Operations
The ANP Hospital did not have sufficient numbers of pharmacists or proper
inventory control procedures in place to effectively manage its pharmacy and
properly dispense medications.

This was due, in part, to insufficient number of authorized pharmacist positions
at the ANPH in the 1391 Tashkil and was made more apparent when compared to
authorized pharmacist positions at ANA regional hospitals.

The shortage of pharmacists has been aggravated by the September 2013 expansion
of the inpatient-bed capacity from 74 to 161 beds, with no subsequent increase in
the number of pharmacy personnel to handle the increased number of patients.

Additionally, ANPH did not effectively manage the inventory and control of
pharmaceuticals,11 including controlled substances.12

As a result, the shortage of pharmacists and lack of accountability and control
regarding medication management limited the ability of ANPH to safely and effectively
dispense medications and manage its pharmacy operations. Specifically, the lack of
pharmacists impacted their ability to implement proper quality control measures
necessary to prevent mismanagement, theft, and waste of pharmaceuticals.

	11	
        Pharmaceuticals pertain to items in a pharmacy and medicinal drugs.
	 12	
        A controlled substance is any medication that has the potential for abuse or addiction and must be kept in a separate
        locked area to prevent unauthorized removal from the pharmacy department.




Applicable Criteria
(See Appendix C, number 1 and 12, for additional details.)

International Security Assistance Force Afghan National Security Forces Healthcare
System Development Support Plan to COMISAF OPLAN 38302, November 28, 2011.

Policies and Procedures of the Pharmacy Department Afghanistan National Police
Hospital Kabul, Afghanistan, January 31, 2013.




                                                                                                                                DODIG-2014-072 │ 53
Observation 5



                 Discussion
                 The director of the pharmacy (an ANP colonel) was responsible for the main
                 hospital pharmacy and the polyclinic (outpatient) pharmacy. Additionally, he provided
                 oversight of medical logistics for the hospital which included the ordering, receipt,
                 and distribution of consumable medical supplies, such as bandages, needles, and
                 syringes, as well as medical equipment.

                 The pharmacy for the hospital was located on the first floor and was comprised of
                 one large room which was divided into two sections—the dispensing area and the
                 bulk-storage area.          The dispensing area had a large self-contained glass cabinet
                 with shelves that held various medications used for patients in the hospital. The
                 bulk storage area also contained a similar glass cabinet used to store a 30-day
                 supply of hospital medications.                The pharmacy staff used the medications from
                 the bulk storage area to refill the storage shelves on the dispensary side, once they
                 were depleted.

                 According to the pharmacy director, the hospital filled 50 to 60 outpatient
                 prescriptions daily, processed physician’s prescriptions for hospital inpatients, and
                 distributed these medications to the patient wards.




                      Figure 18. Medication Storage Cabinet in ANPH Dispensary
                      Source: DoD IG-SPO




54 │ DODIG-2014-072
                                                                                                                                  Observation 5



Pharmacy Personnel
The 1931 Tashkil authorized the ANPH pharmacy to have two pharmacies and one
technician However, the pharmacy director indicated he needed additional pharmacy
personnel to properly run the pharmacy.                               He suggested six additional pharmacy
personnel would be needed to maintain effective operations—two pharmacy
quartermasters (responsible for the ordering and receipt of medical supplies), two
pharmacy technicians, and two pharmacists.

Although the pharmacy director believed he needed six more employees, the
NTM-A pharmacy advisor recommended that one additional pharmacist would
be adequate.              This person would serve as a clinical pharmacist and visit the
wards more frequently, review medication profiles (listing of medications that a
patient is prescribed), and check the medication carts and medication supplies on
the wards.

The hospital averaged 70 to 114 inpatients during 2012 and 2013. In
September 2013, the hospital opened an expansion facility which increased bed
capacity to 161. Although the hospital expanded its inpatient-bed capacity, there were
no plans to increase the number of pharmacy personnel to manage medications for
the potential increased number of patients.

Previously, DoD IG reported on pharmacy personnel shortages at the ANA Dawood
National Military Hospital.13                   We determined that the ANA had three pharmacists
assigned to regional hospitals, each of which operated between 50 to 100 beds.
ANPH pharmacist capability appeared to be disproportionate, especially given that
ANP casualties were a significant multiple of those incurred by the ANA.

Our team observed that ANPH did not have sufficient pharmacists to regularly
make rounds of the patient wards. In addition, during our visit to the hospital, we
found large quantities of expired medications on the wards. Moreover, the nurses
on the ward were unaware of the procedures to handle expired medications and
returned them to the hospital general medical supply storage room, instead of to
the pharmacy for proper disposal.                          Additional pharmacists would enable training
to hospital personnel on proper medication handling, including monitoring
safe medication practices on the patient wards.




	13	
       “Oversight of the U.S. Military and Coalition Efforts to Improve Healthcare Conditions and to Develop Sustainable ANSF
       Medical Logistics at the Dawood National Military Hospital,” (Report No. DoDIG-2013-053), March 13, 2013.




                                                                                                                                DODIG-2014-072 │ 55
Observation 5



                 Inventory Control Measures
                 The pharmacy did not employ automated inventory accountability and control
                 methods to manage their medication stock. Instead, pharmacy personnel annotated
                 their accounting for medication quantities by using manual methods and transcribing
                 this information onto ledgers.                The pharmacist reviewed the process used to
                 reconcile the quantities of medications in the pharmacy to verify what was
                 ordered and what was dispensed.                    He said he performed this review monthly;
                 however, he did not conduct the reconciliation daily. According to the NTM-A pharmacy
                 advisor, both daily and monthly reconciliations were required.

                 The pharmacy standard operating procedures required the pharmacist to maintain
                 accurate and up-to-date stock cards for each medication maintained in the pharmacy.
                 The stock card was required to identify the name and quantity of medication available
                 on the storage shelves. When we visited the pharmacy we found the storage shelves
                 were labeled with the name of the medication, but the quantities were not updated
                 to account for medications dispensed.




                      Figure 19. Example of Stock Card in ANPH Pharmacy, Kabul
                      Source: DoD IG-SPO




56 │ DODIG-2014-072
                                                                                                  Observation 5



Storage of Controlled Substances
Although the ANPH pharmacy had adequate written procedures for the security
and storage of controlled substances, we noted that the storage cabinet and desk
used to store these medications were not properly secured. We found narcotics and
other controlled substances stored in a locked desk drawer.

The pharmacy SOP required that these medications be kept in a locked cabinet,
secured to a permanent structure. The locked desk drawer could be easily opened
or broken into. The desk was not secured or bolted to the floor and could be carried
out of the pharmacy.

The pharmacy director informed the team he previously requested a safe using the
MoI Form 14 process. The request was denied by hospital leadership. The pharmacy
director was not given a reason for the disapproval. Subsequent to our visit, NTM-A
and hospital leadership initiated a new request for two safes to store controlled
substances.      The contract was scheduled for approval by September 30, 2013,
and the safes were expected to be delivered within 60 to 90 days after the awarding of
the contract.




  Figure 20. Morphine (Controlled Substance) Stored in Desk Drawer in Pharmacy at ANPH, Kabul
  Source: DoD IG-SPO




                                                                                                DODIG-2014-072 │ 57
Observation 5



                 Authorized Stockage List for the Pharmacy
                 There were 270 pharmaceutical items authorized on the Authorized Stockage
                 List (ASL). However, the ASL was not maintained by the ANP supply system. The
                 ANPH pharmacy only had 70 of these items on their shelves when we visited. The
                 pharmacy director stated he regularly received only 50 percent of the items he
                 requested from MoI’s National Medical Warehouse without any explanation
                 for the shortages. He specifically identified that the pharmacy was consistently
                 short of the following high demand items:

                          •	 antibiotics, such as Amoxicillin and Doxycycline,

                          •	 anti-emetic/anti-vomiting drugs, and

                          •	 bandages for wound dressing changes.

                 In addition to the ANPH pharmacy, several ANP clinics complained of shortages
                 in anti-emetics and antibiotics, particularly Doxycycline, which was used and needed
                 as an anti-malarial drug.


                 Conclusion
                 We found that additional efforts and staff were required to improve the operations
                 of the ANP Hospital pharmacy.       Given the increased patient load at the hospital,
                 without a commensurate increase in pharmacy staffing, the hospital was at
                 risk for poor patient medication support and health care outcomes. More
                 pharmacists are needed to responsibly and safely dispense medications to patients,
                 to provide effective oversight of medication practices within the hospital, to support
                 the increased patient load, and to ensure sustainable effective medication management.




58 │ DODIG-2014-072
                                                                                     Observation 5



Recommendations, Management Comments, and
Our Response

      Recommendation 5.a
      North Atlantic Treaty Organization Training Mission–Afghanistan
      advise and assist the Afghan National Police Hospital to re-assess
      and validate the number of pharmacists and pharmacy personnel
      needed to support effective and efficient operation of the Afghan
      National Police Hospital pharmacy. Identify and implement interim
      measures to ensure that qualified personnel are available to meet
      the current workload demands in the Afghan National Police
      Hospital pharmacy.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 5.a without additional comment.


Our Response
The response from NTM-A was partially responsive.       While concurring with the
recommendation, NTM-A did not specify what actions it had already taken or planned
to take for implementing the recommendation. We request that NTM-A provide an
update on the pharmacist staffing at the ANPH and describe any measures that have
been taken to ensure that the ANPH has qualified personnel available to meet the
workload demands in the ANPH pharmacy.



        Recommendation 5.b
        North Atlantic Treaty Organization Training Mission–Afghanistan
        advise and assist the Afghan National Police Hospital to ensure that
        the Afghan National Police Hospital pharmacy is conducting
        operations in accordance with their existing standard operating
        procedures to include both daily and monthly reconciliation of
        medications and that controlled substances are secured properly to
        prevent mismanagement, theft, and waste of pharmaceuticals.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 5.b without additional comment.



                                                                                 DODIG-2014-072 │ 59
Observation 5



                 Our Response
                 The response from NTM-A was partially responsive.          While concurring with the
                 recommendation, NTM-A did not specify what actions it had already taken or
                 planned to take for implementing the recommendation.          We request that NTM-A
                 provide an update on whether the ANPH pharmacy is conducting daily and monthly
                 reconciliation of medications and that controlled substances are secured properly
                 in accordance with their SOP.



                       Recommendation 5.c
                       North Atlantic Treaty Organization Training Mission–Afghanistan
                       advise and assist the Afghan National Police Hospital to ensure that
                       medication requisition requests are accurately filled by the Ministry of
                       Interior National Medical Warehouse.


                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A concurred with recommendation 5.c without additional comment.


                 Our Response
                 The response from NTM-A was partially responsive. While concurring, NTM-A did
                 not specify what actions it had already taken or planned to take for implementing
                 the recommendation.     We request that NTM-A provide an update on whether the
                 MoI National Medical Warehouse accurately fills medication requisitions submitted
                 by the ANPH.




60 │ DODIG-2014-072
                                                                                           Observation 6




Observation 6
Caring for Combat Casualties at the Afghan National
Police Hospital
Increasing numbers of ANP casualties have strained the medical support capability of
the ANPH which is not capable of providing effective care to all its patients. The ANPH,
formerly a 74-bed inpatient care hospital, had increased to a capacity of 161 beds in
September 2013, without any increase in medical personnel.

The increased patient load has exacerbated the limited ANP medical capability.
MoI and ANP leaders and the OTSG have not responded to the hospital’s need for
additional medical personnel to address the patient load caused by the ANP’s
increased casualty rate and subsequent increased patient care requirements at ANPH.

Furthermore, no protocols were identified that provided guidance when severely
injured ANP casualties exceeded the available level of care and needed to be
transferred to ANA or MoPH hospitals.

Consequently, ANPH was not capable of providing appropriate and necessary care
to the number of casualties it was receiving, which led to sub-optimal medical care
and potential increased mortality.



Applicable Criteria
(See Appendix C, number 1 and 3, for additional details.)

International Security Assistance Force Afghan National Security Forces Healthcare
System Development Support Plan to COMISAF OPLAN 38302, November 28, 2011.

North Atlantic Treaty Organization Training Mission–Afghanistan ANSF Health System
Development Plan, May 2013.


Discussion
ANSF are now leading security operations in Afghanistan, and this has resulted
in a significant increase in casualties, particularly in the ANP. According to NTM-A,
the ANP incur five times as many casualties as their ANA counterparts and the
numbers of ANP casualties are rising over previous years. This increasing number of
ANP casualties has strained the bed capacity and medical capability of the ANPH.


                                                                                       DODIG-2014-072 │ 61
Observation 6



                 Current Capabilities at ANP Hospital
                 Previously described in the Background section, the ANPH is a 161-bed inpatient
                 care facility. The staffing for medical personnel at the hospital is included in Table 7.
                 The number of authorized medical staff positions was based on the previously
                 authorized 74-bed capacity for the ANPH. The fill-rate percentages in Table 7 are
                 based on the 1392 Tashkil and compare the fill-rate against authorized positions.

                 Table 7. ANP Hospital Medical Personnel Percentages
                                    Afghan National Police Hospital – Medical Personnel as of September 2013
                               Position             Positions Filled       Positions Authorized               Fill-Rate
                      Physicians*                         70                        82                          85%
                      Nurses                              37                        42                          88%
                      Medics                              13                        18                          72%
                      *There are an additional 15 Physicians that are involved in clinical training at ANPH

                 Source: NTM-A

                 In 2006, there were no specialty-trained physicians in the ANP.                         Today, there are
                 50 physicians awarded specialty diplomas working throughout the ANP. Additionally,
                 there are 53 physicians currently attending specialty training, either at ANPH or
                 MoPH hospitals. These physicians, once they complete their specialty training, will
                 be assigned to the staff of the ANPH or one of the outlying ANP clinics to fill a
                 vacant position based on the priorities determined by the Surgeon General at that time.


                 DoD OIG Assessment Team Visit to ANPH
                 In June 2013, the DoD IG assessment team visited the ANPH and spoke with
                 13 ANP patients and 1 family member.                     At that time, the hospital had a patient
                 census of 82 and additional beds were set up in the patient waiting rooms and in
                 the hallways to accommodate the high number of patients.                               The majority of
                 patients we visited were combat casualties, several of whom had significant
                 injuries, including amputations, head trauma from blast exposure, open fractures,
                 and extensive wounds from improvised explosive devices.

                 In general, the patients we spoke with responded positively to questions about
                 their medical treatment at the ANPH.                    The patients we interviewed had clean
                 bed linens and pajamas, their bandages and dressings were clean and properly
                 applied, and the patient rooms, although congested due to overcrowding, were tidy
                 and generally clean.




62 │ DODIG-2014-072
                                                                                               Observation 6




 Figure 21. ANP Patients Overflowed Into the Hallways and Visitor Lounges, Kabul
 Source: DoD IG-SPO


Although we did not see or interview ANPH patients who needed a higher level
of care, we received reports of previous situations in which a patient’s medical
condition worsened to the point that their care was beyond the capability of the
ANPH. According to NTM-A medical advisors, the ANPH did not have a protocol to
transfer such patients to other hospitals with a higher degree of medical capability.
Such a protocol would need to define the medical criteria for identifying patients
requiring medical care not offered at the ANPH and also establish procedures
to affect their transfer to the ANA Dawood National Military Hospital (NMH),
where a higher level of care was available.                   NTM-A medical advisors at ANPH
indicated they were working with the ANPH and NMH to develop such a policy.


Office of the Surgeon General Priorities
Because of the increasing number of ANP casualties, the ANP Surgeon General
focused on expanding the number of ANPH inpatient beds and adding additional
regional hospitals to provide for the care of these casualties. However, this focus
did not include increasing the medical personnel required for the expanded number
of ANPH beds.




                                                                                           DODIG-2014-072 │ 63
Observation 6



                 The ANPH expansion initially involved adding 40 beds to the original 74-bed
                 facility. Our assessment team discussed, with the ANP Surgeon General, the need
                 we had identified for more medical personnel and equipment to accommodate the
                 additional bed space. He acknowledged that he already had the staff available at
                 the ANPH to accommodate the additional patients once the expanded bed capacity
                 opened. Furthermore, he explained that NTM-A was assisting with the procurement
                 of medical equipment to support the expanded bed capacity.

                 However, in early September 2013, due to the increasing number of ANP casualties,
                 the Surgeon General was concerned that even with the 114-bed expansion facility
                 open he would not have enough bed space to care for all ANP casualties.
                 As such, the Surgeon General reconfigured the hospital’s administrative spaces,
                 which opened up additional rooms in the hospital for patient beds.                       As a result,
                 the expansion project, which opened in September 2013, resulted in a total of
                 161 inpatient beds versus 114 beds as originally planned.                        During our follow-on
                 discussions with the Surgeon General in October 2013, he acknowledged that he
                 needed additional medical personnel to accommodate 161 beds and was working
                 with NTM-A to propose an increase in the hospital’s Tashkil.




                      Figure 22. Walkway from the ANP Hospital to the Expansion Facility, Kabul
                      Source: DoD IG-SPO



                 Another priority for the ANP Surgeon General was the renovation of the former
                 “Red Hospital” to a 200-bed ANP Hospital. The “Red Hospital” is located within close
                 proximity of the ANPH and was previously a hospital constructed by the Soviets.



64 │ DODIG-2014-072
                                                                                        Observation 6



The building was severely damaged during the Afghan Civil War and subsequently
renovated to be used as a hospital again.       However, the MoI decided to convert
the building into administrative spaces for the ANP Training General Command,
responsible for the training of the expanding ANP force. The ANP Surgeon General
indicated that he had always viewed this building as belonging to the OTSG and
lobbied MoI to have it converted back into a hospital.       NTM-A did not support
the Surgeon General’s plan to reclaim this former hospital given the ongoing
expansion plans for the current ANPH.          However, the Surgeon General pursued
his plan without the assistance of NTM-A and lobbied MoI to accept his proposal to
renovate the “Red Hospital.

In June 2013, MoI endorsed the plan for the renovation of the “Red Hospital” and
initially approved a 328-person Tashkil of medical personnel for the planned
200-bed facility.     However, in September 2013, new leadership within the MoI
cancelled the approval of the Tashkil, and renovation plans for the “Red Hospital”
were halted.    The Surgeon General planned to re-engage with MoI leadership
to regain approval for the 200-bed hospital.

The ANP Surgeon General was also pursuing construction of several 50-bed
hospitals in the outlying provinces with $10 million donated by the Republic of
Korea. There were no ANP hospitals operating in the provinces. Medical care for ANP
casualties in outlying provinces was provided by MoPH facilities and ANA regional
military hospitals.    MoI was identifying the land, upon which to construct these
hospitals, however, the MoI did not expect to complete the project for several years.
As of November 2013, this was a MoI-led initiative without assistance from NTM-A.

While these separate expansion efforts ultimately may be necessary, the concern
we identified was that the ANPH was in need of additional medical personnel to
address the increased hospital bed capacity as ANP casualties were increasing. The
various expansion initiatives significantly detracted attention of the ANP Surgeon
General from the pressing need for additional medical assistance now at the ANPH.
NTM-A agreed with our position and was coordinating with the Surgeon General
to prioritize his effort to focus on developing a proposal for additional medical
personnel at the ANPH. Furthermore, NTM-A believed that the medical equipment
procured for the ANPH expansion, and scheduled to arrive in late fall 2013, would
be adequate to meet the needs of the additional patients at the ANPH. However,
the Surgeon General was working with MoI, to procure additional equipment,




                                                                                    DODIG-2014-072 │ 65
Observation 6



                 such as a CAT Scan and MRI machines, which would expand the capability of
                 the hospital. This additional equipment was being procured through MoI channels
                 without the assistance of NTM-A.


                 Concerns for the Current and Future ANP
                 Healthcare Capability
                 Senior NTM-A officials acknowledged that ANP medical capability was limited
                 and agreed that the ANP needed more beds for patients at the ANPH. NTM-A also
                 concurred that the current ANP medical priority should be given to improving
                 existing facilities and providing necessary medical personnel and equipment
                 at the ANPH. To this end, NTM-A medical advisors were working with the ANP Surgeon
                 General and ANPH medical personnel to emphasize the importance of this objective.

                 In support of ISAF’s plan for developing the ANSF healthcare system, NTM-A senior
                 officials and medical advisors sought to develop healthy working relationships
                 between the ANP and the ANA, especially at the Surgeon General and ministerial
                 levels.   Although these efforts were ongoing; we found significant professional
                 and personal differences and a lack of trust between ANA and ANP senior
                 medical leaders in the Kabul area.      The ANP Surgeon General seemed intent on
                 seeking medical care for ANP casualties at the ANPH and was reluctant to willingly
                 ask for medical help for ANP personnel from the NMH when a patient required a
                 higher level of care. We identified that these barriers did not exist in the provinces as
                 ANP casualties were often treated at ANA regional hospitals.



                 Conclusion
                 Increasing numbers of ANP casualties have strained the limited staffing and
                 medical capability of the ANPH. ANP medical leadership was focused on expanding
                 their bed capacity and building additional facilities to care for these combat
                 casualties.   MoI/OTSG emphasis on new expansion elsewhere detracted from
                 first ensuring that the ANPH was capable of providing effective medical care to the
                 increasing of number casualties it was receiving.




66 │ DODIG-2014-072
                                                                                  Observation 6



Recommendations, Management Comments, and
Our Response

         Recommendation 6.a
         International Security Assistance Force Command, in coordination
         with International Security Assistance Force Joint Command,
         Combined Security Transition Command–Afghanistan and North
         Atlantic Treaty Organization Training Mission–Afghanistan, conduct
         key leader engagements with Ministry of Interior and Ministry of
         Defense to continue to build formal, cooperative relationships
         between Ministry of Interior and Ministry of Defense medical
         leaders so that the Afghan National Police who require medical care
         that is beyond the capability of the Afghan National Police Hospital
         are able to take better advantage of more robust healthcare
         resources that are available at the Afghan National Army National
         Military Hospital.


International Security Assistance Force Command
ISAF did not respond to the draft report prior to publication.


Our Response
We request that ISAF provide an update within 60 days after the issuance of
the final report on progress made in building formal, cooperative relationships
between MoD and MoI medical leadership to ensure that ANP casualties
who may require medical care beyond the capability of the ANPH are willingly
transferred from the ANPH and able to receive medical treatment at the ANA NMH.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with the recommendation and explained that, in addition to
using the ANA NMH, MoPH medical facilities could also be used to care for ANP
casualties who required medical care that was beyond what was available at the
ANPH.    Additionally, NTM-A commented that NMH and MoPH medical facilities
were currently being used to treat ANP personnel.




                                                                                DODIG-2014-072 │ 67
Observation 6



                 Our Response
                 The response from NTM-A was responsive.       We request an update in 6 months
                 describing any progress made in ensuring that ANP casualties receive adequate
                 medical care.



                         Recommendation 6.b(1)
                         North Atlantic Treaty Organization Training Mission–Afghanistan
                         continue to advise and assist the Ministry of Interior and the
                         Surgeon General to determine the number of medical personnel
                         that are needed to provide safe and effective medical care at the
                         Afghan National Police Hospital, based on the current and projected
                         increase in patient load.



                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A concurred with recommendation 6.b(1) without additional comment.


                 Our Response
                 The response from NTM-A was partially responsive.       While concurring with the
                 recommendation, NTM-A did not specify what actions it had already taken or
                 planned to take for implementing the recommendation.       We request that NTM-A
                 provide an update within 60 days after the issuance of the final report describing
                 coordination efforts with the MoI and OTSG on the medical personnel staffing
                 requirements for the ANPH.



                         Recommendation 6.b(2)
                         North Atlantic Treaty Organization Training Mission–Afghanistan
                         continue to advise and assist the Office of the Surgeon General to
                         develop a plan to identify patients whose medical condition exceeds
                         the capabilities offered by the Afghan National Police Hospital.
                         This plan should include the development of a protocol that also
                         provides for the timely transfer of these patients to a higher level
                         of care medical facility.




68 │ DODIG-2014-072
                                                                                        Observation 6



North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 6.b(2) without additional comment.


Our Response
The response from NTM-A was partially responsive.           While concurring with the
recommendation, NTM-A did not specify what actions it had already taken or
planned to take for implementing the recommendation.           We request that NTM-A
provide an update within 60 days after the issuance of the final report on whether
procedures are in place to identify patients whose medical conditions exceed the
capabilities offered at the ANPH and require transfer to another hospital.




                                                                                    DODIG-2014-072 │ 69
                                                                                               Observation 7




Observation 7
Developmental Plans and Advisory Resources
ISAF planning efforts and advisory resources were not sufficient to develop the
ANP capability to provide effective point-of-injury care.

This occurred because of the following:

         •	 Prior medical advisory efforts were primarily focused on ANA development.

         •	 ANSF medical leaders did not fully embrace the overarching ISAF medical
            development plan because they found it hard to understand and not
            relevant to what they believed was important.

         •	 ISAF medical planning for the ANP had not been sufficiently implemented
            at the regional level.

         •	 Because of conflicting duties, some advisors had limited time available
            to mentor ANP medical personnel.

         •	 Medical advisory resources were projected to decrease as part of the
            drawdown of Coalition forces jeopardizing future development of
            improved ANP medical capability.

As a result, the limited development of ANP’s ability to effectively treat casualties on
a sustainable basis cannot be expected to significantly improve in the foreseeable
future and thus the survivability of many injured policemen will be put at risk.



Applicable Criteria
(See Appendix C, number 1, 2, 3, 5, and 6, for additional details.)

International Security Assistance Force Afghan National Security Forces Healthcare
System Development Support Plan to COMISAF OPLAN 38302, November 28, 2011.

International   Security    Assistance    Force    Joint   Command    Standard     Operating
Procedures 1147 ANSF Healthcare Development-Corps and Below, January 15, 2011.

North Atlantic Treaty Organization Training Mission–Afghanistan ANSF Health System
Development Plan, May 2013.




                                                                                           DODIG-2014-072 │ 71
Observation 7



                 North Atlantic Treaty Organization Training Mission–Afghanistan/Combined Security
                 Transition Command–Afghanistan Base Order 2012-2014, Command Surgeon,
                 January 9, 2012.

                 Government of the Islamic Republic of Afghanistan, Ministry of Interior Affairs,
                 Deputy Ministry of Policy and Strategy, “Afghan National Police Strategy; 1392–1397,”
                 March 2013.


                 Discussion
                 The ANSF have taken the lead in fighting the insurgency and as a result are suffering
                 more casualties than in previous years. ANP forces are particularly targeted because
                 they patrol in small groups, using more predictable patrol patterns, and do not
                 have the same capacity as the ANA to defend themselves against attack or respond
                 with a sufficient quick reaction force. As a result, ANP personnel are suffering a
                 significantly higher casualty rate than the ANA. This can impact ANP personnel
                 morale and retention and, therefore, its sustainable effectiveness.

                 The MoI identified reduction of ANP casualties as one of its top 10 priorities in
                 the recently published National Police Strategy.       However, on reviewing Coalition
                 plans, we found that most plans and field-level initiatives were primarily
                 focused on ANA medical development.            The limited guidance that existed for
                 ANP medical development was not sufficient to properly guide ANP advisors in the
                 areas of point-of-injury care, patient evacuation, and en route care.


                 ISAF ANSF Healthcare Development Plan
                 ISAF released their plan, “Afghan National Security Forces Healthcare System
                 Development Support Plan to COMISAF OPLAN 38302,” in November 2011. Senior
                 Coalition medical leaders asserted that this plan was overly complex and hard
                 to understand by both Coalition medical advisors and ANSF medical leaders.
                 Additionally, a senior ISAF medical representative explained that both the ANA and
                 ANP Surgeons General had no ownership of the plan and contended that the content
                 within the plan was not what they wanted to focus on.

                 During an interview with a senior ISAF medical leader, we discussed the possibility
                 of revising the medical development plan and, while the interviewee appeared
                 receptive to the idea, he noted that future modifications and revisions to this
                 plan would be completed based on direction provided in the NATO Operation
                 Resolute Support mission for 2015 and beyond. This guidance and work was expected
                 to begin in the fall of 2013 and into 2014.


72 │ DODIG-2014-072
                                                                                                                             Observation 7



NTM-A ANSF Medical Development Plans
In support of the November 2011 ISAF ANSF Healthcare System Development
Plan, NTM-A published their initial plan, “NTM-A/CSTC-A BASEORD 2012-2014
for Command Surgeon,” in January 2012.                                 Coalition medical advisors asserted
that this plan was easier to understand and implement than the ISAF plan.                                              The
NTM-A plan focused medical advisory efforts at both the ministerial level and
hospital level to help achieve transition of the hospitals to Afghan lead by the end
of 2013. This plan was updated in May 2013 and addressed the development of the
ANSF to conduct point-of-injury care, patient evacuation, and en route care, among
other things.


IJC ANSF Medical Development Plan
NTM-A and IJC shared the responsibility for the development of medical capability
within the ANSF.                NTM-A assumed responsibility for development of the “above
Corps/Zone”14 ANSF medical organizations in the ANP, including the Office of
the Surgeon General, ANP Hospital, National Medical Warehouse, and the ANP
Regional Training Centers.                  The responsibility for the medical development of the
“Corps/Zone and below” medical assets fell to IJC.                                 Specifically for the ANP, IJC
mentored the development of medical capabilities for the police headquarters at the
provincial levels, including ANP clinics supporting the various headquarters elements.




    Figure 23. NTM-A Medical Advisor and Medical Personnel from Provincial Headquarters
    AUP Clinic, Kandaharl
    Source: DoD IG-SPO


	 14	
        “Above Corps/Zone” refers to ANSF medical organizations and institutions above the ANA Corps and ANP Region/Zone
        level. Whereas “Corps/Zone and below” refer to ANSF medical elements at ANA Corps and ANP Region/Zone level and
        below which includes the provinces and districts.

                                                                                                                           DODIG-2014-072 │ 73
Observation 7



                 IJC did not have a specific written plan for ANSF medical development. However,
                 they did provide guidance in “ISAF Joint Command Standard Operation Procedures
                 1147 ANSF Healthcare Development-Corps and below” in January 2011.                                                    The IJC
                 SOP identified several end-states for ANP medical capability including “providing
                 specialized first aid, triage, and evacuation of casualty from point of injury to an
                 appropriate medical treatment facility.”                         However, the SOP had not been updated
                 since 2011 and it did not prioritize the efforts for IJC’s Regional Commands (RCs),
                 which were responsible for advising and developing ANP medical capability in
                 the provinces.

                 Although IJC was responsible for the planning effort of ANSF medical development
                 at “Corps/Zone and below,” we found varying degrees of execution at the RC level.
                 An exception was the RC-East Command Surgeon’s office that had reviewed all
                 relevant ANSF medical development plans and available doctrine and developed
                 a robust plan for ANSF medical development.                                 This plan included the assessment
                 of point-of-injury care, patient evacuation, en route care, medical training,
                 and medical logistics, among others, for both the ANA and ANP.

                 In contrast, the RC-Southwest Medical Advisor focused their developmental
                 efforts on improving the medical capability of the ANA and encouraged the use
                 of civilian healthcare facilities.                  In effect, RC-Southwest did not specifically advise
                 on ANP medical support.                        RC-Southwest determined the best course of action
                 was to develop and improve the medical capability of ANA, which in turn would
                 provide medical support to injured ANP personnel.

                 SFAAT15 assumed responsibility for medical advising in the RCs conducted, in most
                 cases, at the provincial level. Some RCs provided limited guidance regarding ANP
                 medical development to the SFAAT medical advisors.                                        This approach may have
                 developed because ISAF and the MoI had not agreed on an ANP medical development
                 plan. Regardless, several of the U.S. military medical advisors we interviewed in the
                 police zones could not demonstrate a working knowledge of any specific medical
                 system development plan upon which to base their mentoring activities.                                                      The
                 SFAAT advisors generally agreed that they needed to operate under one
                 comprehensive and integrated ISAF planning strategy, fully coordinated with
                 the MoI and ANP, with sufficient guidance provided them to be able to implement
                 the strategy.


                 	15	
                        Security Forces Assistance–Advisory teams are small mission-specific teams designed to provide support and assist in the
                        development of the ANSF.




74 │ DODIG-2014-072
                                                                                          Observation 7



Despite the lack of a centralized development plan or strategy for the
development of ANP medical capability within the provinces, we found isolated
efforts by the SFAAT to provide medical advising and first-aid training to police
units to help improve their ability to properly care for ANP casualties. Examples
of this include the provision of combat lifesaver skills courses previously discussed
in Observation 1.


Advisory Efforts Focused More on the ANA than the ANP
NTM-A had initiated medical advising for the ANA Medical Command and for
the development of the ANA hospitals in 2004, whereas medical advising at the
ANPH did not begin until 2009. As a result, the ANA medical system was further
developed than the ANP medical system.        We were informed that this occurred
because NTM-A lacked sufficient resources to adequately advise both the ANA
and ANP hospital development and ANA development was given priority.
Additionally, Coalition advisors asserted they had no experience in developing a
medical care system for police forces.    As a result of these factors, the Coalition
gave priority emphasis to use the MoPH state-run public health organization
to provide medical support to the ANP and to make ANA hospitals available for
use by the police forces.

Several senior Coalition leaders agreed that development of the ANA had been
the higher priority. One senior ISAF official asserted that, “It is clear, the priority
was the ANA, not MoI and the ANP.”        Another leader described the ANP as “the
stepchild” and explained that the Coalition had in the past concentrated its
advisory efforts on the ANA.        We were informed and found that, currently,
additional emphasis was being placed on ANP development.


Feedback from Medical Advisors
We surveyed and interviewed numerous medical advisors working in the field and
found that little effort was expended by their in-country commands to establish a
baseline of knowledge for medical advisors to understand and be able to perform
their duties in developing ANP healthcare capability. We were informed that
one reason that this occurred was due to the haste to deploy medical personnel
down range. It also had to do with the fact that orientation to advisory job duties
received less priority than unit relief-in-place operations. No one we interviewed
ever mentioned having received brigade- or division-level orientations.       Advisors
consistently reported lack of preparatory knowledge and direction as to what




                                                                                      DODIG-2014-072 │ 75
Observation 7



                 to emphasize in their jobs once they had assumed their duties.               One advisor,
                 after 2 months into an 8-month tour, was told to just “figure it out.”

                 In preparation for our fieldwork, we used a questionnaire to solicit feedback on
                 the experiences of medical advisors who were currently deployed and worked
                 with either the ANA Corps Surgeon or with the ANP police units within the
                 provinces. Of the 14 responses received, 10 were from medical personnel assigned
                 to SFAAT who advised the ANP.            Three responses were provided by medical
                 advisors to the ANA Corps Surgeon and one response was received from an
                 NTM-A medical advisor who served as a liaison officer with one of the
                 ANA hospitals. Common themes in the responses included:

                          •	 There was a lack of clarity regarding what higher headquarters expected
                             with respect to ANP medical development.

                          •	 There was limited knowledge of the ISAF Campaign Plan and Unified
                             Implementation Plan. Several advisors were aware these plans existed
                             but were not familiar with the content.        Higher headquarters strategic
                             and operational plan orientations took the form of “threat” briefings.

                          •	 With respect to guidance and medical development documentation,
                             responses indicated very little knowledge concerning identifying specific
                             doctrinal manuals and in-country resources. Some advisors characterized
                             their orientations as “surfing command websites.”

                          •	 Regarding mission and end-state, most responses conveyed a subjective
                             answer to this question, not a precisely understood attainment goal.
                             Respondents provided what they believed they could accomplish
                             during their rotation based on their individual assessments. General
                             comments such as: “having Afghan sustainable systems . . . or achieving
                             the best available medical support they were capable of achieving”
                             were common, but not specific.

                 Limitations in Medical Advising for the ANP
                 We found that the majority of advising for point-of-injury care at the provincial-
                 level was conducted by the medical members of SFAAT.                     However, several
                 of the SFAAT medical personnel expressed that they did not have adequate
                 time to spend on their advisory duties, due to other competing priorities
                 within the SFAAT.      As an example, several medical advisors explained that the
                 primary role of the SFAAT medic was to provide for the medical needs of the team
                 and any advisory efforts were a secondary role.


76 │ DODIG-2014-072
                                                                                       Observation 7




  Figure 24. Hungarian SFAAT, Mazar-e-Sharif
  Source: DoD IG-SPO


One of the complaints was that the SFAAT had limited resources and was not
supported by higher command elements in handling administrative duties, such as
completing performance evaluations, award nominations, or other military-specific
duties.    Additionally, much medical personnel time was spent researching and
collecting information for requests for information and feeding this information to
higher headquarters. All of these additional duties took time away from face-to-face
advising with police units and their medical personnel.

The planned reduction of Coalition forces in support of ISAF’s withdrawal of
combat forces by December 2014 will reduce, progressively, the number of
dedicated medical-advisor assets across the area of operations.


Conclusion
ISAF planning efforts and advisory resources were insufficient for developing
the ANP capability to provide effective point-of-injury care.

Although some advisors had individually embarked on efforts to improve the
medical training and assistance provided to ANP forces, these efforts were made
without the guidance of an ISAF development plan and could have been more
focused with a better understanding of the Coalition's specific goals and objectives
to establish a sustainable medical program for the care of ANP casualties.




                                                                                   DODIG-2014-072 │ 77
Observation 7



                 Recommendations, Management Comments, and
                 Our Response

                          Recommendation 7.a
                          International Security Assistance Force Command, in coordination
                          with International Security Assistance Force Joint Command, update
                          development plans to ensure they include an emphasis on the
                          development of Afghan National Police point-of-injury care, patient
                          evacuation, and en route care.


                 International Security Assistance Force Command
                 ISAF did not respond to the draft report prior to publication.


                 Our Response
                 We request that ISAF provide an update within 60 days after the issuance of
                 the final report on progress made in updating plans to ensure they include an
                 emphasis on the development of ANP point-of-injury care, patient evacuation, and
                 en route care.


                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A concurred with the recommendation and explained that an updated plan
                 of action will demonstrate that they are currently working closely with the ANP
                 to include the ANP Training General Command on the continued development of
                 the ANP healthcare system, to include point-of-injury care.          Additionally, NTM-A
                 is working with the ANP OTSG to help them with en route care and patient
                 evacuation, which will rely heavily on the collaborative relationships with the
                 ANA and MoPH.


                 Our Response
                 The response from NTM-A was partially responsive.                We request that within
                 60 days after the issuance of the final report NTM-A provide a copy of the
                 updated plan of action which describes efforts addressing point-of-injury care,
                 en route care, and patient evacuation.




78 │ DODIG-2014-072
                                                                                                Observation 7




        Recommendation 7.b(1)
        International Security Assistance Force Joint Command provide written
        guidance to Regional Commanders and advisor teams which, at a
        minimum, addresses goals, objectives, and metrics for the development
        of a sustainable program for the care of combat casualties.


International Security Assistance Force Joint Command
IJC concurred with recommendation 7.b(1) without additional comment.


Our Response
The response from IJC was partially responsive.               While concurring with the
recommendation, IJC did not specify what actions it had already taken or planned
to take for implementing the recommendation.            We request that IJC provide an
update within 60 days after the issuance of the final report on what guidance
they have provided to the Regional Commanders and advisor teams to develop a
sustainable program for the care of ANP combat casualties.              Additionally, provide
a copy of documents which describe the plan they have implemented to assist
the ANP in building a viable program to care for their combat casualties.



        Recommendation 7.b(2)
        International Security Assistance Force Joint Command ensure
        that medical advisory assets, including those from the Security
        Force Assistance Advisory Teams, prioritize development of Afghan
        National      Police   point-of-injury   care   and   patient    evacuation
        capability.     Specifically, ensure that Security Forces Assistance-
        Advisor Teams medical advisory personnel assist the development
        of an effective program to provide for the first aid, treatment, and
        transport of Afghan National Police casualties.



International Security Assistance Force Joint Command
IJC concurred with recommendation 7.b(2) without additional comment.




                                                                                            DODIG-2014-072 │ 79
Observation 7



                 Our Response
                 The response from IJC was partially responsive.       While concurring with the
                 recommendation, IJC did not specify what actions it had already taken or
                 planned to take for implementing the recommendation.        We request that IJC
                 provide an update within 60 days after the issuance of the final report on the
                 efforts of the SFAAT to develop an effective program to provide for the first aid,
                 treatment, and transport of ANP casualties.




80 │ DODIG-2014-072
                                                                                                                                Observation 8




Observation 8
Medical Logistics
NTM-A and IJC efforts to establish an efficient and effective ANP medical logistics
system were marginally effective and required additional development to improve
the availability of Class VIII16 medical supplies to the ANP Hospital and associated clinics.

This issue can be attributed to the following identified factors:

               •	 Insufficient         medical        advisory         resources         were       committed        to   the
                   development of the ANP National Medical Warehouse (NMW) in Kabul
                   which contributed to the warehouse being in disarray. Some supplies had
                   been there for a prolonged period of time without having been distributed.

               •	 The clinics often did not receive medical supplies requested by submitted
                   MoI Form 14 documentation.

               •	 The present distribution system for Class VIII supplies was so inefficient
                   ANP personnel from clinics had to drive to the NMW to request and
                   pick up their supplies, risking lengthy travel on dangerous roads.

Without an effective medical logistics system, the ANP cannot meet its supply needs
for critical medications and essential medical supplies, which as a consequence,
adversely impacts patient care.

	16	
       Class VIII supplies are medical supplies, including pharmaceuticals and repair parts for medical equipment.




Applicable Criteria
(See Appendix C, number 18, for additional details.)

Ministry of Interior Policy “Process for the Management of Logistics,” January 2009.


Discussion
We found the ANP medical logistics system to be marginally effective in providing
medical supplies and pharmaceuticals to ANP medical facilities.                                          This was due, in
part, to insufficient medical advisory resources focused on the development of
the ANP medical logistics system, to include the NMW in Kabul.




                                                                                                                            DODIG-2014-072 │ 81
Observation 8



                 Insufficient Medical Logistics Advisory Resources
                 There were two advisor positions authorized to mentor medical logistics development
                 within the ANP OTSG. The advisor authorization included one contractor position and
                 one military medical logistics subject matter expert. The contractor was responsible
                 for mentoring the Deputy Director of the ANP Medical Logistics Warehouse/
                 Purchasing Agent, and the military advisor mentored the Director of the ANP Medical
                 Logistics Warehouse.

                 We found that an assigned civilian contractor had been engaged in advising ANP
                 medical logistics for nearly 3 years. This individual was highly knowledgeable about
                 ANP medical logistics and the Coalition’s previous developmental efforts to improve
                 the system. However, he did not renew his term of employment and re-deployed
                 in May 2013. Although the vendor immediately began recruiting efforts to replace
                 this individual, his absence resulted in a 4-month gap in the contracted position.
                 This resulted in a 50 percent reduction in advisory resources and left the military
                 advisor, with much less experience, as the only resource to continue the necessary
                 mentoring. This situation continued until September 2013 when a qualified contract
                 medical logistics advisor was found to fill the vacant position.

                 A lack of continuity in filling the military advisor position further limited the
                 medical logistics advisory effort. Initially, a U.S. Air Force officer filled the position.
                 However, this individual was re-assigned within 1 month of her arrival to oversee
                 the ANP medical finance and budget activities for NTM-A, based on her experience
                 in finance.

                 In May 2013, another U.S. Air Force officer was assigned as the ANP medical
                 logistics advisor after his arrival in Afghanistan.            His military occupational
                 specialty was financial management, and he had limited experience with medical
                 logistics. This individual was initially selected to fill a financial manager position
                 within NTM-A. Therefore he attended pre-deployment training that did not prepare
                 him for his eventual advisory duties as the medical logistics advisor. He was not
                 adequately prepared to assume this advisory role.

                 Another factor negatively impacting the development of the ANP medical logistics
                 system was the limited hours available to the logistics advisor to directly mentor
                 ANP medical logistics personnel due to insufficient transportation assets.             The
                 NTM-A Office of the Command Surgeon had several vehicles available to transport
                 medical advisors.      However, they were committed to other medical advisory
                 missions and not made available for the medical logistics advisor.               Although



82 │ DODIG-2014-072
                                                                                          Observation 8



the medical logistics advisor attempted to arrange other transportation with
NTM-A movement assets, several of these missions were cancelled due to security
reasons or higher priority movement requests.

As a result, the medical logistics advisor was only able to visit the medical warehouse
five times in a 5-week period, whereas medical advisors at the ANPH were able
to visit the hospital three to five times per week. Without significantly increasing
the frequency of advisor visits, the medical warehouse will not receive the
advisory attention it clearly needs and will not be able to provide effective medical
logistics system support.

Additionally, written resource materials available for medical logistics advisors
were very limited.       The ISAF ANP Logistics Mentor Handbook, produced in 2011,
contained general information regarding the organization and function of the
ANP logistics systems.           However, the handbook did not contain information
specifically related to Class VIII supplies or the development of warehousing plans
and operations.


ANP Medical Logistics and the National Medical Warehouse
In June 2009, the ANP Surgeon General assumed responsibility for the medical
logistics process, with advisory support provided by NTM-A.             The MoI/ANP
medical logistics infrastructure consisted of the National Medical Warehouse
(NMW), a 45,000 square feet medical depot in a leased facility in Kabul. The depot
was responsible for distributing medical supplies and pharmaceuticals to the
ANP Hospital, 21 ANP medical clinics within Kabul, and to over 100 ANP clinics
throughout the remaining 33 Afghan provinces.




 Figure 25. Interior of ANP National Medical Warehouse, Kabul
 Source: DoD IG-SPO


                                                                                      DODIG-2014-072 │ 83
Observation 8



                 NTM-A advisors reported the current supply depot to be inadequate due to
                 structural issues and the lack of environmental controls. MoI, with the assistance
                 of NTM-A, identified another warehouse facility and has planned to move the
                 medical warehouse operations in the Spring 2014.

                 NTM-A and MoI were working to address the following required actions to support
                 the move:

                         •	 obtaining additional pallets needed for the move,

                         •	 establishing a transportation contract to move items,

                         •	 clearing out the replacement facility,

                         •	 installing adequate shelving for the new operation,

                         •	 installing power receptacles for forklifts, and

                         •	 identifying requirements to facilitate the move, to include establishing
                             Internet access and finalizing office accommodations.

                 In June 2013, when we visited the current warehouse and interviewed the staff,
                 we observed that the facility was dirty, disorganized, and supplies were improperly
                 stacked on the ground without proper pallets.

                 The military advisor explained that the Afghans did not have a written warehousing
                 plan to organize the warehouse, but they could verbally articulate their plan for
                 the new warehouse.

                 Additionally, there were significant amounts of medical supplies on hand, including
                 antibiotics and intravenous solutions.     These materials required the attention of
                 warehouse personnel to ensure they were used prior to their stated expiration date.
                 NMW had a policy to send items to the hospital and clinics so they could be used
                 prior to expiring.   Of the items we inspected, all were current and had at least
                 several months left prior to expiring. However, the large quantities of these supplies
                 on hand raised the question whether they would be used prior to their expiration date.




84 │ DODIG-2014-072
                                                                                               Observation 8




 Figure 26. Excess Medical Gear in ANP National Medical Warehouse
 Source: DoD IG-SPO



Distribution System for Class VIII Supplies
In general, we found that the ANP medical logistics system primarily operated
as a “pull” system; the warehouse prepares to fill a request once a request for
supplies is received from the ANPH and outlying medical clinics.           In accordance
with the MoI logistics policy, MoI Form 14s were used to request items, and Form
9s were used to acknowledge receipt when the items were delivered.                Typically,
the orders were requested on a quarterly basis. We also found that the warehouse
“pushed” medications that were near expiration to the outlying clinics where they
could be used prior to expiring. This process was outlined in their logistics policy
and was intended to avoid the waste of expired medications.

The MoI had over 130 clinics in Afghanistan which were supplied from the NMW
in Kabul.      To obtain medical supplies and pharmaceuticals, an ANP medical
quartermaster or other authorized medical officer had to drive to the NMW with
the appropriate forms to obtain desired supplies. If the list of items requested was
extensive, quartermasters were known to wait for several days while the order
was filled to the extent possible.          Medical personnel who performed this process
informed us that they did not always receive all of the items that they requested.
The warehouse did not have all items that they needed in stock and warehouse
personnel did not tell them when, or if, they would receive those needed items.




                                                                                          DODIG-2014-072 │ 85
Observation 8



                 Complaints included the following:

                         •	 A physician assistant from ABP Zone 2 medical clinic (Gardez) shared
                            that he had to go to the local bazaar to purchase antibiotics because the
                            clinic didn’t have enough medications on hand to administer to patients.
                            These outside purchases were not reimbursed by MoI. Additionally, he
                            explained that he did not have any anti-malaria medicine, although it had
                            been ordered several months before.

                         •	 The AUP Zone 202 (Nangahar) surgeon complained that he was not
                            receiving all the items that he ordered. Specifically, he mentioned anti-
                            malaria medicine as one medication that he needed but didn’t have in
                            stock. Additionally, a year ago he ordered 3,500 mosquito nets for police
                            personnel in his zone, but only received 100 of them because that was
                            all that was available in the warehouse.

                         •	 A physician from the 3rd Brigade ANCOP medical clinic (Balkh) stated
                            that he requested 195 items, including medical consumable supplies and
                            medications, but the clinic only received 40 to 50 of the requested items
                            and were not told why they did not get the remainder.

                         •	 A physician from the Provincial Headquarters AUP clinic (Kandahar)
                            claimed he requested 108 items, but only received 48 items. We offered
                            to trace the MoI 14 request for this order.      However, he didn’t have a
                            copy of the form that he could show us. Additionally, he claimed that he
                            needed and was unable to receive from the NMW, antihistamines used to
                            treat allergies.

                         •	 A medical advisor in RC-North (Mazar-e Sharif) reported that the
                            ABP medical clinic had difficulty obtaining the necessary antibiotics to treat
                            diarrhea conditions caused by drinking poor quality water.

                         •	 A medical officer in charge of the combined ABP (Zone 1)/ANCOP
                            (5th Brigade) (Jalalabad) medical clinic told us that medical officers
                            paid for items at the bazaar that they couldn’t get from the NMW using
                            money from their personal salary, without reimbursement. Additionally,
                            patients purchased medications at the bazaar when they were not
                            available at the clinic, again without reimbursement.

                 Additional concerns with the ANP medical supply distribution system pertained
                 to the safety of the individuals who picked up medical supplies in Kabul and the




86 │ DODIG-2014-072
                                                                                              Observation 8



time medical professionals spent away from the clinic to obtain the supplies.
Reports from several medical personnel working in the provinces indicated
that they drove personal vehicles to Kabul for periods of up to 12 hours through
treacherous, insecure areas to obtain medical supplies from the medical warehouse.
Additionally, these individuals waited in Kabul for the request order to be filled
before returning to their clinics, a process that at times took weeks to complete.

In an effort to reduce the waiting time in Kabul, the warehouse had recently started
a process whereby supply requests could be submitted via e-mail.              Additionally,
NTM-A advisors informed that, on occasion, the warehouse utilized MoI Material
Management Center (MMC) transport assets to carry medical supplies using
existing supply convoys. However, there were no medical quartermasters within the
MMC organization to oversee storage and distribution of medical supplies requiring
special handling requirements.

The distribution process for the delivery of medical supplies appeared inefficient
and, in numbers of cases, the medical clinics did not receive the supplies they
required to properly care for patients.          Additionally, medical personnel from
the outlying clinics were at increased risk of harm given the primary method to
obtain medical supplies was driving on dangerous roads to get to the Kabul warehouse.

ANP medical logistics personnel recommended that MoI establish four regional
medical warehouses to improve supply distribution to the outlying clinics; however,
this was not viewed as a priority by the ANP Surgeon General and therefore was
not acted upon.      Implementing a regional distribution system would alleviate
the need for clinic personnel outside Kabul to drive to the NMW for medical supplies.


Conclusion
The ANP medical logistics system was marginally effective and required additional
development to improve the availability of essential Class VIII supplies.

Developing an effective ANSF logistics system in Afghanistan has been a long-
standing and challenging effort.     As described in the “Report on Progress Toward
Security and Stability in Afghanistan,” published in July 2013, logistics is identified
as one of the ANSF enablers that will need continued assistance through the end of
December 2014 and beyond.          As such, it is critical for the command to ensure
there are sufficient qualified advisory resources to continue development of
ANSF logistics in key areas.




                                                                                          DODIG-2014-072 │ 87
Observation 8



                 Recommendations, Management Comments, and
                 Our Response

                             Revised Recommendation 8.a
                             U.S. Central Command, in coordination with the North Atlantic
                             Treaty Organization Training Mission–Afghanistan and the sourcing
                             service, ensure that the medical logistics advisory position attached
                             to the Afghan National Police Office of the Surgeon General is
                             properly identified in the Joint Manning or Request for Forces
                             document to ensure that the appropriate rank and requisite medical
                             logistics skill experience is included and the position is filled
                             appropriately by the sourcing service.


                 U.S. Central Command
                 U.S. Central Command concurred with recommendation 8.a and explained that the
                 Medical Logistics mentor position should be filled with personnel that have the
                 appropriate experience and training. Additionally, they added that it was critical that
                 the sourcing service and those monitoring the assignment of personnel against these
                 requirements pay close attention to the special remarks and job descriptions listed
                 in the Joint Manning or Request for Forces documents. These details ensure that
                 Individual Augmentees/service members tasked to these billets have the appropriate
                 skillset to provide guidance to their mentees. Furthermore, USCENTCOM explained
                 that using just the Military Occupational Specialty/Air Force Specialty Code/
                 Naval Officer Billet Classification does not always guarantee that the tasked officer has
                 the required skillset.


                 Our Response
                 The response from USCENTCOM was partially responsive.             While concurring with
                 the recommendation, USCENTCOM did not specify what actions it had already
                 taken or planned to take for implementing the recommendation.                  They did
                 provide information which allowed us to revise the recommendation to address
                 language needed in the Joint Manning or Request for Forces documents to ensure
                 the medical logistics position is filled with a person of appropriate rank and
                 skillset.    We request that USCENTCOM coordinate with         the sourcing service and
                 NTM-A to provide an update within 60 days after the issuance of the final report
                 on what actions were taken to ensure the appropriate language is included in the



88 │ DODIG-2014-072
                                                                                            Observation 8



Joint Manning or Request for Forces documents to properly identify the best
personnel to fill the medical logistics advisor position.        Additionally, provide an
update on efforts to ensure that personnel filling the medical logistics advisor position
in the future will have the appropriate rank and skillset.



         Recommendation 8.b
         North Atlantic Treaty Organization Training Mission–Afghanistan
         advise and assist the Office of the Surgeon General to improve
         the warehousing plan for the Afghan National Police National
         Medical Warehouse. Additionally, leverage available logistics experts
         to assist the Office of the Surgeon General in the design and
         implementation of this plan.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 8.b without additional comment.


Our Response
The response from NTM-A was partially responsive.            While concurring with the
recommendation, NTM-A did not specify what actions it had already taken or planned
to take for implementing the recommendation. We request that NTM-A provide an
update on the warehousing plan for the ANP NMW within 60 days after the issuance
of the final report.    Additionally describe the current medical logistics advisory
resources that are available to assist the OTSG in implementing an effective
warehousing plan.



           Recommendation 8.c
           International   Security     Assistance   Force   Joint   Command,    in
           coordination with North Atlantic Treaty Organization Training
           Mission–Afghanistan and Ministry of Interior, assess the effectiveness
           of the current process for requesting, filling, issuing, and distributing
           Class VIII supplies. Specifically, evaluate the process and procedures
           used by the 130 Afghan National Police clinics when submitting
           Ministry of Interior Form-14s, the timely responsiveness of filling
           these requests by National Medical Warehouse, and the efficiencies
           of distributing these orders to the requesting clinics.       Based on
           results, mentor the development of a plan to improve the
           effectiveness of the request and distribution process.

                                                                                        DODIG-2014-072 │ 89
Observation 8



                 International Security Assistance Force Joint Command
                 IJC concurred with recommendation 8.c without additional comment.


                 Our Response
                 The response from IJC was partially responsive.       While concurring with the
                 recommendation, IJC did not specify what actions it had already taken or planned to
                 take for implementing the recommendation. We request that IJC provide an update
                 within 60 days after the issuance of the final report on the effectiveness of the
                 current process to request, fill, issue, and distribute Class VIII supplies for the
                 ANP clinics outside the Kabul area.   Additionally, provide information on what is
                 being done to improve the effectiveness of the request and distribution process
                 for the ANP clinics.




90 │ DODIG-2014-072
                                                                                               Observation 9




Observation 9
Oversight and Management of Afghan National Police
Healthcare Capability
Although the OTSG had the responsibility for oversight and the management of all
medical activities within the MoI, his lack of authority resulted in significantly
varying degrees of medical support to the ANP.

This was due, in part, to the lack of clearly defined responsibilities and authority
for the OTSG in reference to the oversight of the medical care and services provided
to the ANP. Additionally, the placement of the OTSG within the MoI organizational
structure was not optimal.

As such, the Surgeon General had limited influence to affect manning, equipping,
and training of ANP medical personnel to improve healthcare operations. The lack of
effective OTSG operations as well as MoI management and oversight of ANP healthcare
services jeopardized the development of a uniformly effective and sustainable
ANP medical system.



Applicable Criteria
(See Appendix C, number 1, 2, 3, 5, and 15, for additional details.)

International Security Assistance Force Afghan National Security Forces Healthcare
System Development Support Plan to COMISAF OPLAN 38302, November 28, 2011.

International Security Assistance Force Joint Command Standard Operating Procedures
1147 ANSF Healthcare Development-Corps and Below, January 15, 2011.

North   Atlantic    Treaty   Organization–Afghanistan/Combined         Security   Transition
Command–Afghanistan Base Order 2012-2014, Command Surgeon, January 9, 2012.

North Atlantic Treaty Organization Training Mission–Afghanistan ANSF Health System
Development Plan, May 2013.

Ministry of Interior “Surgeon General Organization and Functions Manual” (Draft),
August 24, 2011.




                                                                                           DODIG-2014-072 │ 91
Observation 9



                 Discussion
                 We found wide ranging degrees of medical support and capability across the ANP.
                 This was due, in part, to organizational and operational complexities within the
                 MoI which hindered the ANP Surgeon General from providing effective oversight
                 to manage the medical developmental effort and his lack of authority to carry out
                 essential support functions.


                 Healthcare Responsibilities and Span of Control
                 We found that the MoI had not published a document outlining the formal
                 responsibilities of the ANP Surgeon General with respect to oversight and management
                 of ANP medical activities.      However, we were shown a draft “Surgeon General
                 Organization and Functions Manual (OFM),” dated August 24, 2011, that outlined the
                 Surgeon General’s responsibilities as follows:

                             The Surgeon General is responsible for the provision of all
                             medical care and services to the ANP, reporting directly to the
                             MoI Deputy Minister for Support.        Additionally, the Surgeon
                             General oversees the development of ANP medical policy and
                             training development.     The Surgeon General’s direct span of
                             command and control is limited. However, the Surgeon General
                             exercises technical staff supervision over all other facilities and
                             organizations of the ANP involved in the delivery of health
                             services. The Surgeon General carries out much of his
                             responsibilities by issuing medical-specific policy, directives, and
                             decrees through the MoI and employing technical channels to
                             coordinate with medical personnel assigned or attached to
                             subordinate organizations within the MoI.


                 Oversight and Management of Medical Operations
                 A senior medical advisor within NTM-A explained that there was a “huge gap”
                 in the oversight of medical operations between what occurred in Kabul and the
                 medical activities throughout the provinces in the various AUP, ABP, and ANCOP
                 clinics.   There were communication challenges, as well as command and control
                 issues between the MoI and ANP Surgeon General, and with the various police
                 pillars (organizations).    The senior advisor informed us that the ANP Surgeon
                 General’s authority outside of Kabul was negligible, and he believed this had a
                 negative impact on the development of an effective ANP healthcare system.




92 │ DODIG-2014-072
                                                                                                                                  Observation 9



Although the draft OFM designated the Surgeon General as responsible for the
oversight of all medical activities within MoI, in reality the Surgeon General did not
have the authority to perform this function.                                The individual police commanders
and the police pillar leads, not the Surgeon General, had command and control
over the management of medical personnel activities within the various police
units in the provinces.

Observation 2 identified that ANP medics were not always assigned to work in
medical positions. As a result, there were insufficient numbers of medics to properly
care for ANP casualties in a number of ANP units and locations. The Surgeon General
was aware of this problem, but he had no influence over the decisions made by police
leaders to use medics in non-medical positions.                                A senior leader at IJC explained
that, although MoI understood the priorities and level of effort to develop an
adequate healthcare capability, provincial and district chiefs of police “really run
things” and if they don’t see medics and point-of-injury care as important, they
will put their medics to work elsewhere. Recognizing this problem, IJC continues
to advise and assist police leadership in the field to properly employ their
medics to improve casualty response.


Complexity of the Police Operating Elements
The MoI organizational structure and command and control relationships were
complex.           The police forces were comprised of 4 main police organizations (also
called “pillars”) and 2 sub-pillars spread throughout Afghanistan’s 34 provinces.17
Although the various police pillars were contained within the MoI organizational
structure, Provincial Chiefs of Police controlled the activities of the various police
units within their respective provinces.

The Surgeon General reported directly to the Deputy Minister for Support; whereas
the six police organizations (ABP, ANCOP, AUP, Afghan Anti-Crime Police (AACP),
Afghan Local Police (ALP), and Judiciary Police) reported to the Deputy Minister for
Security.         This presented a significant challenge for the Surgeon General because
the organizational structure made it difficult for him to directly assist or address
medical issues for a particular pillar.                         One senior NTM-A official explained that
MoI had significant institutional management challenges, to include the command
and control structure for the various pillars of the ANP and that the various police
units were scattered throughout the country. These challenges were more difficult


	17	
       The ANP are comprised of four main pillars (AUP, ANCOP, ABP, and AACP) and two sub-pillars (ALP and Judiciary Police).
       Refer to Appendix D for a description of each police pillar.




                                                                                                                                DODIG-2014-072 │ 93
Observation 9



                 to overcome in the MoI than the MoD due to organization structure differences
                 between the army and the police, thus making it more difficult for the Coalition
                 to      support      MoI’s     ongoing      developmental      efforts.   Appendix   E   presents   a
                 picture of the overall MoI organization and the placement of the Surgeon General and
                 various police pillars.


                 Minimal Oversight for the Management of the
                 ANP Healthcare System
                 We found several examples that reflected medical care inconsistencies and/
                 or weak management that we believe contributed to the lack of a cohesive and
                 comprehensive medical healthcare system for the ANP. Examples follow:

                              •	 Significant variance in ANP clinic capability and conditions.             We found
                                  medical personnel were working in inadequate and unsafe conditions at the
                                  AUP Provincial Headquarters clinic in Kandahar. Patients were cared for in a
                                  sparsely furnished metal container with inadequate ventilation; medications
                                  were stored in ambulances due to the lack of adequate storage space. The
                                  clinic was located at the bottom of a hill and at times became flooded when
                                  it rained. Additionally, we saw puddles of brackish water at the top of the
                                  hill which drained towards the clinic during periods of rainfall. This raised
                                  a concern for the health of the individuals working in and visiting the clinic.




                      Figure 27. Provincial Headquarters AUP Clinic, Kandahar
                      Source: DoD IG-SPO




94 │ DODIG-2014-072
                                                                                                   Observation 9



        •	 Conversely, we found a combined ABP and ANCOP clinic in Paktiya
            Province that was in very good condition. The clinic was recently built,
            had a large triage room and several exam rooms, and eight beds to hold
            patients who required an overnight stay.                Additionally, the clinic had
            a laboratory room and a fully equipped dental room. However, neither
            the laboratory nor dental room were listed on the clinic’s Tashkil and
            therefore were not sustainable.                 ANP clinic personnel obtained the
            necessary equipment on their own in order to have a full service clinic.
            Clinic personnel were working with the Surgeon General to determine
            if they could add this medical equipment to the Tashkil in order
            to ensure proper maintenance of the equipment and receive the
            necessary supplies for sustainment.

        •	 Substantial disparity in ANP medical clinic staffing, medical personnel
            qualifications, and availability of equipment. We found that there were
            no doctors assigned to the ABP clinic in Kandahar. In Mazar-e-Sharif, the
            ABP clinic director complained that they did not have enough medical
            personnel to cover nine provinces, which included eight ABP Kandaks
            and eight border patrol points.                The medical personnel that he had
            assigned to support the 9 provinces were 5 physicians (including him)
            and 44 medics, of which only 30 were trained in the 8-week Trauma
            Assistance Personnel course.




Figure 28. Provincial Headquarters AUP Clinic, Mazar-e-Sharif
Source: DoD IG-SPO



                                                                                               DODIG-2014-072 │ 95
Observation 9



                         •	 Additionally, the AUP clinic in Mazar-e-Sharif was just re-located to
                            a larger compound due to the disestablishment of the AUP zone
                            headquarters. The new location was a former eye clinic/hospital. It was
                            fairly large, had multiple patient examination rooms and over 20 beds
                            were set up to receive patients.       However, the facility did not have
                            adequate climate control (no air conditioning or heat), nor did it
                            have the surgical staff or medical equipment listed on the Tashkil to
                            properly care for police casualties.        The medical director for the
                            AUP clinic explained that the ANP in his location averaged 12 casualties
                            per week, and he needed more surgical capability to properly care
                            for the injured.

                         •	 Inconsistency in medical training and equipping for individual policemen
                            and medics.        As discussed in Observation 1, we found that, beyond
                            basic first-aid training, there was no program for ongoing sustainment
                            training for point-of-injury care and en route care.      There was a basic
                            lack of understanding among police leaders regarding the requirements
                            and qualifications for medics.     Lastly, we identified a severe shortage
                            of individual first-aid kits and medic trauma bags, as well as a lack of
                            understanding by advisors and ANP officials regarding how they were
                            to be issued and maintained.


                 Conclusion
                 There was a fundamental lack of effective oversight and management of the ANP
                 healthcare system.    Although the Surgeon General had the responsibility for the
                 management of MoI medical activities, as outlined in the draft OFM, he had no authority
                 to influence conditions. The complexity of organizational structures within the MoI,
                 coupled with the lack of sufficient delineation of responsibilities and authorities
                 for medical development resulted in a disparate healthcare capability for which
                 there existed no clear MoI or ANP plan to significantly improve conditions.




96 │ DODIG-2014-072
                                                                                     Observation 9



Recommendations, Management Comments, and
Our Response

        Recommendation 9.a
        North Atlantic Treaty Organization Training Mission–Afghanistan
        advise and assist Ministry of Interior and the Office of the Surgeon
        General to review, update, and issue the Office of the Surgeon
        General Organization and Functions Manual that includes a
        description of the duties, responsibilities, and authority for the
        Afghan National Police Surgeon General.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 9.a without additional comment.


Our Response
The response from NTM-A was partially responsive.        While concurring with the
recommendation, NTM-A did not specify what actions it had already taken or
planned to take for implementing the recommendation.        We request that NTM-A
provide within 60 days after the issuance of the final report an update on the
revision of the OTSG Organization and Functions Manual. If the manual has been
updated, please provide a copy in your response.



        Recommendation 9.b
        North Atlantic Treaty Organization Training Mission–Afghanistan
        advise and assist Ministry of Interior and the Office of the Surgeon
        General to identify factors which exist to limit the Afghan National
        Police Surgeon General from providing effective oversight of the
        medical care and services for the police forces and propose solutions
        to make improvements.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 9.b without additional comment.




                                                                                 DODIG-2014-072 │ 97
Observation 9



                 Our Response
                 The response from NTM-A was partially responsive.           While concurring with the
                 recommendation, NTM-A did not specify what actions it had already taken or planned
                 to take for implementing the recommendation.          We request that NTM-A provide
                 within 60 days after the issuance of the final report an update on improvements
                 in the ANP Surgeon General’s oversight of the medical care and services for the
                 police forces.



                          Recommendation 9.c
                          North Atlantic Treaty Organization Training Mission–Afghanistan
                          advise and assist Ministry of Interior and the Office of the Surgeon
                          General to identify the appropriate requirements for effective
                          Afghan National Police clinic operations to include facilities, clinical
                          services, manning, and equipment to provide quality medical care.
                          Ensure Tashkils are updated accordingly.



                 North Atlantic Treaty Organization Training Mission-Afghanistan
                 NTM-A concurred with recommendation 9.c without additional comment.


                 Our Response
                 The response from NTM-A was partially responsive.           While concurring with the
                 recommendation, NTM-A did not specify what actions it had already taken or
                 planned to take for implementing the recommendation.           We request that NTM-A
                 provide within 60 days after the issuance of the final report an update on the OTSG’s
                 efforts to identify the appropriate requirements for effective clinic operations to
                 include facilities, clinical services, manning, and equipment needed for the
                 provision of medical care.      Additionally, provide an update on the Tashkils for
                 these clinics.




98 │ DODIG-2014-072
                                                                                            Observation 9




        Recommendation 9.d
        North Atlantic Treaty Organization Training Mission–Afghanistan,
        in coordination with Combined Security Transition Command–
        Afghanistan, advise and assist the Office of the Surgeon General to
        conduct key leader engagements with Ministry of Interior to ensure
        the Afghan National Police Surgeon General is provided authority
        to discharge his responsibilities for oversight of healthcare services
        provided to the Afghan National Police and the manning, equipping,
        and training of Afghan National Police medical personnel.


North Atlantic Treaty Organization Training Mission-Afghanistan
NTM-A concurred with recommendation 9.d without additional comment.


Our Response
The response from NTM-A was partially responsive.          While concurring with the
recommendation, NTM-A did not specify what actions it had already taken or planned
to take for implementing the recommendation.         We request that NTM-A provide
within 60 days after the issuance of the final report an update on any efforts or actions
taken to improve the ANP Surgeon General’s ability to provide effective oversight
of healthcare services to the ANP.     Include a description of improvements made
in the manning, equipping, and training of ANP medical personnel.




                                                                                        DODIG-2014-072 │ 99
                                                                                             Appendixes




Appendix A
Scope and Methodology
We conducted this assessment from April 2013 to September 2013, in accordance
with the Quality Standards for Inspections.             We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable
basis for our observations, conclusions, and recommendations, based on our
objectives. Site visits to Afghanistan were conducted from June 7, 2013, to July 7, 2013.

We reviewed documents such as Federal laws and regulations, DoD directives,
and instructions.    We also reviewed appropriate U.S. Central Command, NATO/
ISAF, U.S. Forces-Afghanistan, IJC, NTM-A/CSTC-A, and MoI guidance, to include
published reports, operational plans, and previous inspection and/or assessment
reports related to the ANSF healthcare system and ANSF medical logistics.
Additionally, we reviewed activities that directly related to efforts to develop the
healthcare capability for the Afghan National Police:

         •	 U.S. and Coalition strategy, guidance, and plans;

         •	 U.S. and Coalition orders, Fragmentary Orders, and policies;

         •	 activities and opinions of U.S. and Coalition personnel;

         •	 Afghan MoI strategy, guidance, and plans;

         •	 GIRoA and MoI Decrees; and

         •	 activities and opinions of Afghan officials and ANSF personnel.

The purpose of our assessment was to evaluate the progress of U.S. and Coalition
efforts to develop an effective and sustainable healthcare capability in support of the
Afghan National Police. As such, we wanted to determine whether U.S. and Coalition:

         •	 plans to develop effective and sustainable healthcare services to the
           ANP are sufficiently comprehensive, coordinated with GIRoA, and being
           implemented so as to meet the timeline for transition goals;

         •	 advisory resources are sufficient and appropriate in order to develop
           the healthcare services necessary to support the medical needs of
           the ANP; and




                                                                                       DODIG-2014-072 │ 101
Appendixes



                          •	 developmental efforts are on schedule and effective in ensuring there
                             is adequate medical capability, including logistics, to provide proper
                             medical support to ANP personnel from the point of injury to the next
                             required level of care.

                 We met with U.S. Military and Coalition members from the NTM-A/CSTC-A who
                 mentor and advise at the MoI, MoD, MoPH, and ANPH. We also interviewed ANPH
                 executive-level leaders and other Office of the Surgeon General personnel to
                 determine matters pertinent to the overall care of the ANP, from treatment at the
                 point of injury, transport to the next level of care, and treatment of the ANP at
                 ANA and MoPH facilities. Additionally, we interviewed ISAF, ISAF Joint Command,
                 and Regional Command (East, South, Southwest, and North) personnel responsible
                 for ANSF development to determine the status of plans for the development
                 of ANP healthcare capability to include point-of-injury care, en route care, patient
                 evacuation, and medical logistics.

                 We visited ANP, ANA, and Coalition medical facilities in six provinces of
                 Afghanistan: Kabul (Kabul), Paktiya (Gardez), Nangahar (Gamberi), Kandahar
                 (Kandahar), Helmand (Shorabak), and Balkh (Mazar-e-Sharif).            We interviewed
                 medical leaders and conducted a walk-through of the medical facilities, focusing
                 on the support that was provided to ANP casualties. Additionally, we interviewed
                 27 ANP patients to better understand the first aid that was given when they were
                 injured and their impressions of the healthcare they received once they were
                 transported to a higher level of care. During our site visit, we toured the following
                 medical facilities:

                          •	 Coalition facilities: Kandahar & Bastion Hospitals;

                          •	 MoI facility: ANP Hospital–Kabul;

                          •	 MoD facilities: ANA Regional Medical Hospitals (Paktiya, Kandahar, and
                             Mazar-e-Sharif);

                          •	 MoI facilities: ANP Regional and Provincial Clinics (Kabul, Gardez, Gamberi,
                             Kandahar, and Mazar e-Sharif);

                          •	 MoD facilities: ANA Troop Medical Clinics (Gardez and Shorabak); and

                          •	 ANP National Medical Warehouse: Kabul.

                 Furthermore, we visited AUP, ABP, and ANCOP police headquarters at the MoI in
                 Kabul, as well as associated AUP, ABP, and ANCOP police units in five provinces of




102 │ DODIG-2014-072
                                                                                            Appendixes



Afghanistan:   Paktiya, Nangahar, Kandahar, Helmand, and Balkh.        We interviewed
police leaders to determine what challenges they had in caring for ANP personnel
who were injured on the battlefield. Additionally, we spoke with U.S. and Coalition
leaders and advisors who were associated with these ANP leaders. Specific ANP units
we visited included:

        •	 Kabul Province: ANCOP 1st Brigade Headquarters (HQ) and clinic;

        •	 Paktiya Province: ABP 2nd Zone HQ and clinic;

        •	 Nangahar Province: ABP 1st Zone HQ and Combined ABP 1st Zone and
           ANCOP 5th Brigade clinic;

        •	 Kandahar Province:     AUP Provincial Headquarters (PHQ) Kandahar and
           clinic, ABP 3 Zone HQ and clinic, ANCOP 4th Brigade HQ clinic, Regional
                        rd


           Police Training Center (RPTC)–Kandahar clinic; and

        •	 Balkh Province:    AUP PHQ Mazar-e-Sharif and clinic, ABP 5th Zone HQ
           and clinic, ANCOP 3rd Brigade HQ and clinic, RPTC Mazar-e-Sharif clinic.


Limitations
We limited our review to DoD-funded programs, NATO-funded programs, and
international donation programs supporting the security forces of Afghanistan.
We further limited our assessment to the AUP, ABP, and the ANCOP, equal to 80
percent of the total police force per Tashkil.     Additionally, due to the increased
threat, we were unable to visit ANP locations external to Camp Leatherneck and Camp
Bastion, Helmand Province.


Use of Computer-Processed Data
We did not utilize any computer-processed data in this assessment.


Use of Technical Assistance
We did not use technical assistance to perform this assessment.




                                                                                      DODIG-2014-072 │ 103
Appendixes



                 Appendix B
                 Prior Coverage
                 During the last four years, the Department of Defense (DoD), the Government
                 Accountability Office (GAO), the Special Inspector General for Afghan Reconstruction
                 (SIGAR), and the Department of Defense Office of Inspector General have issued a
                 number of reports and testimony discussing the development, accountability, and
                 control of logistics and supplies for the MoI and police component of the ANSF.

                 Unrestricted DoD reports can be accessed over be Internet at
                 http://www.defense.gov/pubs.

                 Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

                 Unrestricted SIGAR reports can be accessed over the Internet at http://www.sigar.mil.

                 Unrestricted DoD IG reports can be accessed over the Internet
                 http://www.dodig.mil/audit/reports.

                 Some of the prior coverage we used in preparing this report has included:


                 Department of Defense
                 Report to Congress in accordance with the 2008 National Defense Authorization
                 Act (Section 1230, Public Law 110-181), as amended, “Report on Progress toward
                 Security and Stability in Afghanistan,” July 2013.

                 Report to Congress in accordance with the 2008 National Defense Authorization
                 Act (Section 1230, Public Law 110-181), as amended, “Report on Progress toward
                 Security and Stability in Afghanistan,” April and December 2012.

                 Report to Congress in accordance with the 2008 National Defense Authorization
                 Act (Section 1230, Public Law 110-181), as amended, “Report on Progress toward
                 Security and Stability in Afghanistan,” April and December 2011.

                 Report to Congress in accordance with the 2008 National Defense Authorization
                 Act (Section 1230, Public Law 110-181), as amended, “Report on Progress toward
                 Security and Stability in Afghanistan,” April and November 2010.

                 Report to Congress in accordance with the 2008 National Defense Authorization
                 Act (Section 1230, Public Law 110-181), as amended, “Report on Progress toward
                 Security and Stability in Afghanistan,” June and October 2009.

104 │ DODIG-2014-072
                                                                                             Appendixes



GAO
GAO-13-381, “Security Force Assistance, More Detailed Planning and Improved
Access to Information Needed to Guide Efforts of Advisor Teams in Afghanistan,”
April 2013.

GAO-12-951T, “Long-standing Challenges May Affect Progress and Sustainment of
Afghan National Security Forces,” July 24, 2012.

GAO-11-710, “Afghanistan: Actions Needed to Improve Accountability of U.S. Assistance
to Afghanistan Government,” July 2011.

GAO-10-842T, “Preliminary Observations on DOD’s Progress and Challenges in
Distributing Supplies and Equipment to Afghanistan,” June 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 2010.


SIGAR
SIGAR Audit 13-17, Health Services in Afghanistan: USAID Continues Providing
Millions of Dollars to the Ministry of Public Health despite the Risk of Misuse of
Funds, September 5, 2013.

SIGAR Quarterly Report 2013-07-30, “Quarterly Report to the United States Congress,”
July 30, 2013.

SIGAR Audit 13-9, “Health Services in Afghanistan: Two New USAID-Funded Hospitals
May Not Be Sustainable and Existing Hospitals Are Facing Shortages in Some Key
Medical Positions,” April 29, 2013.

SIGAR Audit 12-04, “DoD Improved Its Accountability for Vehicles Provided to the
Afghan National Security Forces, but Should Follow Up on End-Use Monitoring
Findings,” January 12, 2012.

SIGAR    Audit   11-10,      “Despite   Improvements   in   MoI’s   Personnel    Systems,
Additional Actions Are Needed to Completely Verify ANP Payroll Costs and Workforce
Strength,” April 25, 2011.


DoD IG
DoD IG Report No. 2012-035.5, “Assessment of Afghan National Security Forces
Metrics, Ministry of Interior Police Forces, October 2013 – March 2013,”
June 28, 2013 (CLASSIFIED REPORT).


                                                                                       DODIG-2014-072 │ 105
Appendixes



                 DoD IG Report No. 2013-081, “Assessment of U.S. Government and Coalition
                 Efforts to Train, Equip, and Advise the Afghan Border Police,” May 24, 2013.

                 DoD IG Report No. 2013-058, “Assessment of U.S. Efforts to Develop the ANSF
                 Command, Control, and Coordination System,” March 22, 2013.

                 DoD IG Report No. 2013-053, “Oversight of U.S. Military and Coalition Efforts to
                 Improve Healthcare Conditions and to Develop Sustainable Afghan National Security
                 Forces Medical Logistics at the Dawood National Military Hospital,” March 13, 2013.

                 DoD IG Report No. 2012-109, “Assessment of U.S. Government and Coalition Efforts
                 to Develop the Afghan Local Police,” July 9, 2012.

                 DoD IG Report No. 2012-083, “Additional Guidance and Training Needed to Improve
                 Afghan National Army Pharmaceutical Distribution,” May 7, 2012.

                 DoD IG Report No. SPO-2012-028, “Assessment of U.S. Government and Coalition
                 Efforts to Develop the Logistics Sustainment Capability of Afghan National Army.”
                 December 9, 2011.

                 DoD IG Report No. D-2011-095, “Afghan National Police Training Program: Lessons
                 Learned during the Transition of Contract Administration,” August 15, 2011, a joint audit
                 by the Inspectors General of the Department of State and Department of Defense (DOS
                 Report No. AUD/CG-11-42).

                 DoD IG Report No. SPO-2011-007, “Assessment of U.S. and Coalition Efforts to
                 Develop the Medical Sustainment Capability of the Afghan National Security Forces,”
                 June 14, 2011.

                 DoD IG Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train,
                 Equip, and Mentor the Expanded Afghan National Police,” March 3, 2011.

                 DoD IG Report No. SPO-2010-001, “Assessment of U.S. and Coalition Efforts to
                 Develop the Medical Sustainment Capability of the Afghan National Security Forces,”
                 March 31, 2010.

                 DoD IG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition Plans
                 to Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009.




106 │ DODIG-2014-072
                                                                                          Appendixes




Appendix C
Criteria
International Security Assistance Force (ISAF)
    1.	 International Security Assistance Force (ISAF) Afghan National
          Security Forces (ANSF) Healthcare System Development Support Plan
          to COMISAF OPLAN 38302, dated November 28, 2011. This transition
          plan was developed by ISAF to guide Coalition efforts in their assistance
          to the ANSF in the development of their healthcare system and to assist
          in preparing for transition at the end of 2014. The transition objective for
          the ANSF was focused on Warrior Care, providing health support to the
          ANSF members from recruitment through discharge in both outpatient
          and inpatient settings.

ISAF Joint Command (IJC)
    2.	   ISAF Joint Command SOP 1147 ANSF Healthcare Development-Corps
          and Below, dated January 15, 2011.        Establishes a program to guide
          ANSF Health Development at corps and below and assess progress
          towards the capability and end state.        This plan defines roles and
          responsibilities; clarifies command and control relationships; establishes
          the objective measures and rating definition levels that integrate with the
          Commander’s Update Assessment Tool (CUAT); established the mission
          essential task list; provides tactical level training guidance; establishes
          the methodology and timeline for reporting; and documents training
          resources for ANSF health development personnel.

North Atlantic Treaty Organization (NATO) Training Mission–
Afghanistan (NTM-A)
    3.	 NATO Training Mission-Afghanistan (NTM-A) ANSF Health System
          Development Plan, dated May 2013.            This plan provides guidance
          and details of the NTM-A Command Surgeon’s goals and objectives to be
          achieved in support of a transition to a sustainable and autonomous
          operation of the ANSF healthcare system. The plan identifies the lines of
          operation, lines of development, and measures of effectiveness guiding
          the advising mission in support of achieving a sustainable Afghan
          military healthcare system and is in support of the ISAF ANSF Healthcare
          System Development Support Plan. Line of Operation #1 is “Support to




                                                                                    DODIG-2014-072 │ 107
Appendixes



                           Operations” and identifies Wounded Warrior as a line of development
                           focused on ensuring all Wounded Warriors receive the highest possible
                           care and services in support of their full recovery.

                       4.	 NTM-A/CSTC-A         MoI   Mentoring   and   Training   Statement   of   Work
                           (W91CRB-11-C-0053), Section 9.6, “Trauma Assistance Personnel (TAP)
                           Course,” dated March 31, 2012. Section 9.6 is specific to the TAP course
                           and is in support of the ANP/MoI to provide oversight, continuity, and
                           quality assurance and program management to train first-level healthcare
                           providers and produce qualified and capable personnel to provide
                           emergency and evacuation patient care in forward operating Afghan
                           National Police operations in Afghanistan.

                       5.	 NTM-A/CSTC-A         BASEORD    2012-2014,      Command     Surgeon,     dated
                           January 9, 2012. The NTM-A Command Surgeon’s campaign plan is for
                           the establishment of a functioning ANSF medical system by the end of
                           2014 in order to transition operations to an Afghan lead. The plan is in
                           support of NTM-A BASEORD 2012-2014 and addresses the development
                           of ministerial and institutional leadership, systems and processes, medical
                           capability training, casualty care, hospitalization, patient’s movement, and
                           medical logistics.

                 Government of the Islamic Republic of Afghanistan (GIRoA)
                       6.	 Government of Islamic Republic of Afghanistan, Ministry of Interior
                           Affairs, Deputy Ministry of Policy and Strategy, “Afghan National Police
                           Strategy; 1392 – 1397,” dated March 2013. The National Police Strategy
                           provides strategic guidance for the continued development and operational
                           capability of the Ministry of Interior to meet the current and future
                           challenges of stabilization and security of Afghanistan. This strategy defines
                           the objectives for continued development of the police, law enforcement
                           activities, and associated systems.

                       7.	 Government of Islamic Republic of Afghanistan, Ministry of Interior
                           Affairs, Deputy Ministry of Policy and Strategy, “National Police Plan
                           for Solar Years 1392 and 1393,” dated March 2013. The purpose of the
                           National Police Plan is to provide planning guidance for the continued
                           development of Ministry/Afghan National Police operational capabilities
                           to meet current and future challenges of stabilization, civil order, law
                           enforcement, and security faced by our Nation during Solar Year 1392 and
                           1393 (equivalent to 2013-2014). This plan was developed in accordance



108 │ DODIG-2014-072
                                                                                          Appendixes



          with the Ministry Strategic Planning Directive and the Afghan National
          Police Strategy and assigns major tasks for each of the Deputy Ministers and
          independent departments to complete during the next 2 years according to
          the National Police Strategy.

    8.	   Memorandum of Agreement (MOA) Between Minister of Defense (MoD)
          and Minister of Interior (MoI) to Work Together for the Health Care
          Needs of the Afghan National Security Forces (ANSF), dated June 5, 2009
          (unsigned).      This MOA and follow on activities will ultimately reduce
          died-of-wound rates, reduce prevalence of disease, improve quality of care,
          improve provider proficiency, and maximize utilization of existing services
          within the ANA and ANP or Afghanistan National Security Forces (ANSF).

GIRoA Ministry of Interior (MoI)
    9.	 Solar Year 1392 Tashkil 3 July 2013, retrieved July 28, 2013 and
          updated September 14, 2013.         Provides Ministry of Interior-authorized
          personnel information for Solar Year 1392 (equivalent to mid-2012
          through mid-2013). Includes an authorized listing of personnel positions
          identified by job-type and sorted into specific police units.

    10.	 Solar Year 1391 Tashkil 3 July 2013, retrieved July 28, 2013. Provides
          Ministry of Interior-authorized personnel information for Solar Year 1391
          (equivalent to mid-2011 through mid-2012).            Includes an authorized
          listing of personnel positions identified by job-type and sorted into
          specific police units.

    11.	 Tashkil Order of the Ministry of Interior of GIRoA – Number 51, Dissemination
          and Implementation of MoI 1392 Tashkil, received April 13, 2013.
          Provides direction to re-organize the 1392 Tashkil for the Afghan Uniform
          Police into six Type A Provincial Headquarters (Herat, Kandahar, Helmand,
          Nangahar, Paktiya, and Balkh).

    12.	 Policies and Procedures of the Pharmacy Department Afghanistan
          National Police Hospital Kabul, Afghanistan, dated January 31, 2013.
          These standard operating procedures defined the duties and responsibilities
          of pharmacy personnel. Additionally, the manual provided guidance on
          the following:     dispensing of medications, handling of ward medication
          stock, controlled substances and expired medications, and procedures
          for management of medications in the pharmacy, among other things.




                                                                                    DODIG-2014-072 │ 109
Appendixes



                       13.	Afghan      National   Police    Training    General     Command,    Operations
                            Training for the Fielded Force, v1.2, dated April 2012. The Operations
                            Training program establishes training opportunities for the ANP fielded
                            force in a manner that augments training received in the initial police
                            training course (IPTC) Basic Eight and IPTC Reform Training courses.
                            Operations’ training is annual re-certification and re-qualification in
                            those areas mandated by the ANP Training Command group. Operations’
                            training supports the current training system with sustainment-type
                            training to re-enforce skills learned in initial courses.

                       14.	 Afghan National Police Training General Command, Afghan National Police
                            (ANP) Initial Police Training Course Overview, v2.0, dated July 2012.
                            Program of instruction designed to provide ANP Police recruits with the
                            necessary basic police knowledge and skills. This is a basic police course,
                            designed to give an entry-level police recruit the necessary skills to be
                            effective in the patrolman duties. This course is a building block for all
                            additional ANP courses.

                       15.	 Ministry of Interior “Surgeon General Organization and Functions Manual”
                            (Draft), dated August 24, 2011. This regulation defined and delineated
                            the organization, functions, and responsibilities for Ministry of the
                            Interior (MoI) Office of the Surgeon General (OTSG).

                       16.	 Ministry of Interior Order to the Support and Admin Deputy Office,
                            OTSG, Medical Readiness Department for the Afghan National Police
                            Emergency Ambulance Vehicle Operation Standard Operating Procedures,
                            dated March 24, 2010. A Minister of Interior order directs the Support
                            and Admin Deputy’s Office to establish a proper system of performance,
                            directing all units related to the medical readiness to follow the
                            Standard    Operation     Procedures     (SOP)    for   Emergency   Ambulance
                            Vehicle Operations.

                       17.	 Afghan National Police Training General Command, NCO Eight Week
                            Police Course Overview, dated February 2010.            Program of instruction
                            designed to provide ANP advanced police skills, leadership, first-aid and
                            first-responder responsibilities, firearms, and tactical training.        This
                            course is designed to focus democratic policing principals including
                            ethics and human rights. Instill national pride and identity towards the
                            Islamic Republic of Afghanistan and in the National Police organization.
                            The course will introduce leadership skills and advanced police tactics.




110 │ DODIG-2014-072
                                                                                       Appendixes



    18.	 Ministry of Interior Policy “Process for the Management of Logistics,”
        January 6, 2009.     This decree prescribed common procedures, formats,
        forms, and time standards for the logistics management processes of
        the MoI and movement of logistic information between supporting and
        supported organization/activities. Additionally, the decree identified the
        MoI Surgeon General as responsible for the day-to-day management of
        medical material and supplies. Specifically, the Surgeon General develops
        the policy, plans, and procedures for establishing and maintaining
        supply stockage levels and basic loads for all MoI hospitals and clinics.

    19.	 Afghan National Police Training General Command Training Catalogue,
        “Afghan National Security Forces (ANSF) Trauma Assistance Personnel
        (TAP),” Course Overview, v1.0, received August 11, 2013. The TAP course
        provides a program of instruction designed to train first-level healthcare
        providers and produce qualified and capable personnel able to provide
        emergency and evacuation patient care.

GIRoA Ministry of Defense (MoD)
    20.	 Ministry of Defense Beneficiary’s Treatment Policy at the Afghan
        National Army Medical Facilities, approved, dated May 23, 2012, with
        Attachment 3: Memorandum of Agreement between Minister of Defense,
        Minister of Interior, Minister of Public Health and Combined Security
        Transition Command–Afghanistan. Aim of this policy is to create a clear,
        accurate, and high quality healthcare system for receiving patients that
        are in the approved beneficiary’s list to be treated at the Afghan National
        Army’s medical facilities.




                                                                                 DODIG-2014-072 │ 111
Appendixes




                 Appendix D
                 Afghan Police and Security Organizations
                 Per the GIRoA Afghan National Police Strategy–Solar Year 1392-1397 (approximate
                 to 2013-2018), the ANP are primarily responsible for maintaining civil order and law
                 enforcement. The police forces work with the people to actively combat crime and
                 disorder (including terrorism and illegal armed activity); prevent the cultivation,
                 production, and smuggling of narcotics; and fight corruption.

                 Documents within the GIRoA, MoI, and NTM-A use the term “police pillars” to
                 refer to the various police organizations that reside under the ANP.           Specifically,
                 there are four main police pillars (AUP, ANCOP, ABP, and AACP) and two sub-pillars
                 (ALP and the General Directorate of Police Special Units (GDPSU) which contains the
                 Judiciary Police)

                 Additionally, the MoI provides oversight of other security organizations, such as the
                 Afghan Public Protection Force (APPF).

                 A description of the various police and security organizations under the MoI is
                 included below:

                       1.	   Afghan Uniform Police.       The AUP consists of the ANP Regional Zones,
                             the Traffic Police, and the Fire and Rescue Department.          Their specific
                             roles, duties, and responsibilities are as follows:

                              a.	 Focus on the core functions of policing and providing public services,
                                 training, and education, as well as equipping this force in order to
                                 prevent and detect crime, assure public safety, maintain civil order,
                                 protect property, and safely control traffic.

                              b.	 Maintain the rule of law, adopting an intelligence-led policing model.

                              c.	 Respond to emergencies and maintain public safety.

                              d.	 With the support of the AACP, prevent, promptly detect, and investigate
                                 minor crime.

                              e.	 Secure and preserve evidence, gather, and process criminal intelligence.

                              f.	 Identify and protect witnesses and victims.




112 │ DODIG-2014-072
                                                                                            Appendixes



       g.	 Arrest and detain suspects and perpetrators.

       h.	 Build public confidence in the police and GIRoA.

       i.	 Gather intelligence to support counter-insurgency operations.

       j.	 Provide fire suppression, prevention, and rescue.

       k.	 Ensure safety on the roads, prevent, and investigate traffic accidents.

       l.	 Maintain orderly traffic flow, organize traffic affairs, and inspect vehicles
          for safety.

       m.	Provide public traffic courses to educate drivers on traffic control,
          traffic rules, and traffic signs, and issue driver’s licenses and vehicle
          registrations.

       n.	 Ensure enforcement of appropriate domestic violence legislation in
          order to promote familial and community stability in accordance with
          enlightened Islamic and Afghan family values.

       o.	 Assure adequate security for candidates during elections. Perform
          according to Independent Election Commission standards and remain
          impartial during the election process.

       p.	 Carry out other general policing duties.

2.	   Afghan National Civil Order Police (ANCOP). The ANCOP mission is to
      maintain the rule of law and order utilizing proportionate armed capability.
      It is organized geographically into regional brigades and battalions.
      The ANCOP will be the lead police organization in counter-insurgency
      operations and work in close cooperation with the ABP, AUP, and ANA.

	     Operations conducted by these units should be fully supported by military
      forces or conducted jointly with the military to support the ‘clear’ phase
      of counter-insurgency operations.        The ANCOP will eventually be the
      primary police organization in the ‘hold' phase of counter-insurgency
      operations and will support the AUP.

	     Their specific roles, duties, and responsibilities are:

       a.	 Provide intelligence information and tactical support to the ANA during
          the ‘shape’ and ‘clear’ phases and be the lead police organization in the




                                                                                      DODIG-2014-072 │ 113
Appendixes



                                 ‘hold’ phase of counter-insurgency operations, and work in partnership
                                 with the ANA and ABP during framework operations.

                              b.	 Replace and/or support the AUP in high-threat and unstable areas.

                              c.	 Maintain and restore civil order. 

                              d.	 Conduct public order operations during sensitive or dangerous civil
                                 disturbances and riots.

                              e.	 Conduct operations that require a higher level of training and tactics
                                 or require a mobile quick reaction force for direct action such as
                                 hostage rescues and counter terrorism operations. 

                              f.	 Support counter narcotics operations and assist in poppy eradication
                                 when required.

                       3.	   Afghan Border Police (ABP). The mission of the ABP is to secure and
                             safeguard the national borders and maintain security in the Border
                             Security Zone that extends 50 kilometers into the territory of Afghanistan.

                       	     Their specific roles, duties, and responsibilities are as follows:

                              a.	 Safeguard national boundaries.

                              b.	 Control the entry and exit of individuals and vehicles at borders and
                                 international airports. Ensure personnel have correct documentation.

                              c.	 Deter and counter insurgency and criminal activities within the Border
                                 Security Zone.

                              d.	 Take immediate action against incursions at the border in coordination
                                 with ANA.

                              e.	 Ensure the security of international airports and border crossing points.

                              f.	 Prevent all types of smuggling (weapons, ammunition, goods, drugs,
                                 historical artifacts, human trafficking, etc.)

                              g.	 Cooperate with neighboring countries’ police in accordance with
                                 agreed treaties.

                       4.	   Afghan Anti-Crime Police (AACP). The AACP comprise the investigative
                             and intelligence police capacities at all levels from the MOI to regional
                             zones, provinces, and districts (with the exception of the functions of
                             Inspector General and Internal Affairs).



114 │ DODIG-2014-072
                                                                                         Appendixes



	     They form one pillar of the ANP and consist of the following branches:

       a.	 Counter-terrorism,

       b.	 Police Intelligence,

       c.	 Criminal Investigation,

       d.	 Major Crimes Task Force, and

       e.	 Police Special Operation Units.

	     The mission of the AACP is to provide police units with technical police
      skills not possessed by other members of the police.         They will assist
      in investigations conducted by the offices of the Inspector General and
      Attorney General.

5.	   Afghan Local Police (ALP). In order to ensure the security of local communities
      and pave the way for reconstruction, development, and political stability,
      Decree Number 3196 of the Office of the President authorized establishment
      of the ALP.

       a.	 The current Tashkil for the ALP in 31 provinces and 138 districts is
          approved at 30,000 personnel.

       b.	 Approximately 20,560 personnel have been recruited in 97 districts
          and the process in ongoing to recruit the remainder.

       c.	 ALP is physically present in 92 districts and 5 provincial capitals
          which equal 97 sites.

       d.	 ALP have the direct support of ANP and ANA assigned in the area.

       e.	 A code of conduct, incentives, uniforms, responsibilities, and other
          issues relevant to the ALP have been organized in accordance with
          approved ALP procedures and based on Afghan law. The ALP program
          will last for between 2 and 5 years.

       f.	 The long term strategy for the ALP program is to provide sustained
          security and permanent stability, expand governance and increase
          development in the areas where the ALP will be established.

       g.	 The ALP does not have a police mandate to investigate crime or
          arrest suspects.




                                                                                   DODIG-2014-072 │ 115
Appendixes



                       6.	   General Directorate of Police Special Unit (GDPSU).          Provide specialist
                             tactical capability to support counter-insurgent, counter-narcotics, and
                             counter-organized crime activities. This includes the provision of a Crisis
                             Response Unit, Intelligence and Surveillance capabilities, VIP security, and
                             judicial security.

                              a.	 Prison Police (sometimes referred to as Judiciary Police.) The prison
                                 police are considered a major part of the police force that executes its
                                 tasks and responsibilities for the effectiveness of the court system. They
                                 are focused to obey international convention regarding human rights,
                                 including the convicted and accused rights.

                              	 This pillar of police is responsible for the following tasks:

                                  1)	Ensure and maintain security of the prisons and prisoners.

                                  2)	Ensure and maintain prisoners’ rights in accordance with the laws
                                     of prisons and detention facilities and other enforced laws of
                                     the country.

                                  3)	Provide training and education opportunities for prisoners and
                                     retrain them to avoid criminal activity.

                       7.	   Afghan Public Protection Force (APPF). The APPF operates throughout
                             the country to protect key infrastructure, facilities, construction projects,
                             and personnel, with a special focus on protection from insurgency. It also
                             provides protection for those facilities for which donors, international
                             agencies, and private sector organizations previously contracted private
                             security personnel. This removes the need to employ trained AUP officers
                             in guard positions. The APPF permit more highly trained police resources
                             to focus on providing effective law enforcement. In accordance with
                             Decree Number 62 of the Office of the President regarding the disbandment
                             of private security companies, the APPF will replace these companies.

                       	     The APPF is a part of the ANSF under the direct command and control
                             of MoI. The APPF is a regular state security force rather than militia,
                             but does not have a police mandate to investigate crime or arrest
                             suspects.   The MoI has expanded its command and control capabilities
                             to manage and exercise authority over the APPF.           The APPF is funded
                             by the MoI without the use or diversion of funding from the Law and Order
                             Trust Fund Afghanistan.




116 │ DODIG-2014-072
                                                                                                       Appendixes




Appendix E
Ministry of Interior Organizational Chart


                                         MINISTER OF
                                          INTERIOR




    MoI                 Chief of                                Personal          Legal
  Detection              Staff                                    Staff          Advisor
   Advisor




    Central
                      Director of                              Chief Legal      Internal
     Prison
                     Intelligence                                Affairs       Affairs & IG
  Directorate




    DM                                               DM
                   DM                                                                DM
Strategy &                          DM APPF        Counter          DM Admin
                 Security                                                          Support
  Policy                                           Narcotics

                  Afghan
                 Uniformed                                                        Chief of Staff
                Police (AUP)
                                      Afghan
                   Afghan           Local Police                                    Logistics
                Border Police
                    (ABP)
                                                                                  Procurement
                  Afghan
                National Civil
                Order Police                                                        Surgeon
                                                                                    General
                Afghan Anti-
                Crime Police
                   (AACP)            Judiciary                                      Finance
                                      Police
                  General
                 Directorate                                                        Facilities
                  of Police
                Special Units




                                                                                                 DODIG-2014-072 │ 117
                                Management Comments



Management Comments
U.S. Central Command Response




                                     DODIG-2014-072 │ 119
Management Comments



                 International Security Assistance Force Joint Command
                 Response




120 │ DODIG-2014-072
                                                                                                                                 Management Comments



International Security Assistance Force Joint Command
Response (cont’d)

                                        UNCLASSIFIED//FOUO



                          INTERNATIONAL SECURITY ASSISTANCE FORCE (ISAF)
                                        Joint Command (IJC)
                                         Kabul, Afghanistan
                                           APO, AE 09320


   ISAF-IJC-IG                                                                                  11 March 2014


   MEMORANDUM THRU USFOR-A

   FOR Department of Defense Inspector General (DODIG)


   SUBJECT: Follow-up to DODIG project #D2013-D00SPO-0154.000 (U.S. Military and Coalition
   Efforts to Develop Effective and Sustainable Healthcare in Support of the Afghan National Police)


   1. IJC Inspector General has reviewed and concurs with Headquarters, North Atlantic Treaty
   Organization (NATO) Training Mission-Afghanistan’s review and feedback as regards to the
   subject DODIG project (see enclosure).

   2. Point of Contact (POC) for provided data is Steve Merkel, COL, Chief of Staff NTM-A, DSN
   318-449-1241, steven.m.merkel@afghan.swa.army.mil.

   3. POC for this response is IJC Deputy IG, Mr. Paul Archambault, DSN 318-449-9922,
   paul.b.archambault@afghan.swa.army.mil.



                                                                           Digitally signed by FRANCISCO ARCE

                                                       FRANCISCO ARCE      DN: cn=FRANCISCO ARCE, o=Command Inspector General,
                                                                           ou=IJC, email=francisco.arce.mil@mail.mil, c=US
                                                                           Date: 2014.03.11 12:06:23 +04'30'


   Encl                                               FRANCISCO ARCE
                                                      COL, IG
                                                      IJC Inspector General




                                                                                                                                      DODIG-2014-072 │ 121
Management Comments



                 North Atlantic Treaty Organization Training
                 Mission - Afghanistan Response


                                                 UNCLASSIFIED // FOR OFFICIAL USE ONLY

                                                       DEPARTMENT OF DEFENSE
                                                  NATO TRAINING MISSION-AFGHANISTAN
                                                           APO AE 09354-9998

                       NTM-A-COS                                                                    10 March 2014


                       MEMORANDUM FOR Department of Defense Inspector General (DODIG)

                       SUBJECT: Follow-up to DODIG project #D2013-D00SPO-0154.000 (U.S. Military and Coalition
                       Efforts to Develop Effective and Sustainable Healthcare in Support of the Afghan National
                       Police)


                       1. Headquarters, North Atlantic Treaty Organization (NATO) Training Mission-Afghanistan has
                       completed the review of DODIG project #D2013-D00SPO-0154.000 (U.S. Military and Coalition
                       Efforts to Develop Effective and Sustainable Healthcare in Support of the Afghan National
                       Police) with the Afghan National Police Medical Advisors and provides the following feedback.

                       2. NTM-A concurs with the following recommendations without comment:
                           a. 3.a(1) on page 40
                           b. 5.a, 5.b, and 5.c on page 57
                           c. 6.b(1) and 6.b(2) on page 65
                           d. 8.b on page 84
                           e. 9.a(1), 9.a(2), 9.a(3), and 9.a(4) on page 91

                       3. We do not concur with recommendation 3.a.2., " In coordination with Ministry of Interior and
                       Ministry of Defense, explore the option of using the Afghan National Army Combat Medic
                       Course as a substitute for Trauma Assistance personnel training, if needed, and implement a
                       plan to use this course as an additional program to train Afghan National Police medics." We do
                       not concur as both programs are eight (8) week programs and the curriculum is very similar.
                       Additionally, there is a lack of ANP commitment for sending medics to the eight week TAP
                       program already. There is little confidence that changing the course will improve ANP
                       attendance. We suggest that the first priority is to get ANP leaders to commit to send their
                       medics to TAP and then keep them as medics.

                       4. The point of contact for this memorandum is the undersigned at
                       steven.m.merkel@afghan.swa.army.mil or DSN 449-1241.




                                                                    // original signed //
                                                                    STEVEN M. MERKEL
                                                                    Colonel, U.S. Army
                                                                    Chief of Staff
                                                                    NATO Training Mission-Afghanistan




                                                 UNCLASSIFIED // FOR OFFICIAL USE ONLY




122 │ DODIG-2014-072
                                              Management Comments



North Atlantic Treaty Organization Training
Mission - Afghanistan Response (cont’d)




                                                   DODIG-2014-072 │ 123
Management Comments



                 North Atlantic Treaty Organization Training
                 Mission - Afghanistan Response (cont’d)




124 │ DODIG-2014-072
                                                              Acronyms and Abbreviations




Acronyms and Abbreviations
     AACP Afghan Anti-Crime Police
      AAF Afghan Air Force
      ABP Afghan Border Police
     ACAS Afghanistan Civilian Advisor Support
      AED Automated External Defibrillator
     AFAK Afghan First-Aid Kit
       ALP Afghan Local Police
      ANA Afghan National Army
   ANCOP Afghan National Civil Order Police
      ANP Afghan National Police
     ANPH ANP Hospital (Kabul)
  ANP TAP ANP Trauma Assistance Personnel
     ANSF Afghan National Security Forces
     APPF Afghan Public Protection Force

      ASFF Afghanistan Security Forces Fund (U.S.)
       ASL Authorized Stockage List
      AUP Afghan Uniform Police
      BAS Battalion Aid Station
  BASEORD Base Order
  CASEVAC Casualty Evacuation
        CF Coalition Forces
    CJMED Combined Joint Medical Branch
   CJSURG Combined Joint Surgeon
       CLS Combat Lifesaver Skills
       CM Capability Milestone (a readiness level)
 CMD SURG Command Surgeon
      CNP Counter Narcotics Police
    CSTC-A Combined Security Transition Command–Afghanistan
       CTC Central Training Center
     CUAT Commander’s Update Assessment Tool
  DCOM-P Deputy Commander–Police
      DoD Department of Defense
     DoDI Department of Defense Instruction
    DoD IG Department of Defense Inspector General
    GIRoA Government of the Islamic Republic of Afghanistan
  HMMWV High Mobility Multipurpose Wheeled Vehicle




                                                                        DODIG-2014-072 │ 125
Acronyms and Abbreviations



                             HQ Headquarters
                            ICU Intensive Care Unit
                           ICRC International Committee of the Red Cross
                             IJC ISAF Joint Command
                           IPTC Police Training Course
                            ISAF International Security Assistance Force
                          JCISFA Joint Center for International Security Force Assistance
                            JSU Judiciary Police (Prison Police)
                            LOE Lines of Effort
                            KLE Key Leader Engagement
                        MEDAD Medical Advisor
                       MEDCOM Medical Command
                       MEDEVAC Medical Evacuation
                       MEDLOG Medical Logistics
                          MFAT Multi-Function Advisory Team
                        MINDEF Minister of Defense
                          MMC Material Management Center (MoI)
                           MoD Ministry of Defense (Afghanistan)
                            MoI Ministry of Interior (Afghanistan)
                          MoPH Ministry of Public Health (Afghanistan)
                          MTAG Medical Training Advisory Group
                          NATO North Atlantic Treaty Organization
                           NCO Non-Commissioned Officer
                           NMH National Military Hospital
                          NMW National Medical Warehouse
                         NTM-A NATO Training Mission–Afghanistan
                           OCIE Organizational Clothing and Individual Equipment
                           OFM Organization and Functions Manual
                            OIG Office of Inspector General
                          OTSG Office of the Surgeon General
                           PHQ Provincial Headquarters
                          PRMH Paktiya Regional Military Hospital
                             RC Regional Command
                           RMH Regional Military Hospital
                            RTC Regional Training Center
                          SFAAT Security Force Assistance Advisor Teams
                             SG Surgeon General
                            SOP Standard Operating Procedure
                            SPO Special Plans and Operations




126 │ DODIG-2014-072
                                                Acronyms and Abbreviations



        SY Solar Year
       TAP Trauma Assistance Personnel
       TGC Training General Command
      TMC Troop Medical Clinic (ANA Garrison)
       USC United States Code
USCENTCOM U.S. Central Command
   USFOR-A U.S. Forces–Afghanistan




                                                          DODIG-2014-072 │ 127
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
